<html>
<title> - THE CORONAVIRUS CRISIS: PAVING THE WAY TO AN EQUITABLE RECOVERY</title>
<body><pre>[Senate Hearing 117-65]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 117-65


                    THE CORONAVIRUS CRISIS: PAVING THE WAY 
                             TO AN EQUITABLE RECOVERY

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                                   ON

EXAMINING THE AFFECT OF THE CORONAVIRUS CRISIS AND THE IMPORTANCE OF A 
                  RECOVERY THAT SUPPORTS ALL AMERICANS

                               __________

                           FEBRUARY 18, 2021

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs
                                
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                                


                Available at: https: //www.govinfo.gov /
                
                              __________

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
45-477 PDF                 WASHINGTON : 2021                     
          
-----------------------------------------------------------------------------------                 


            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

                     SHERROD BROWN, Ohio, Chairman

JACK REED, Rhode Island              PATRICK J. TOOMEY, Pennsylvania
ROBERT MENENDEZ, New Jersey          RICHARD C. SHELBY, Alabama
JON TESTER, Montana                  MIKE CRAPO, Idaho
MARK R. WARNER, Virginia             TIM SCOTT, South Carolina
ELIZABETH WARREN, Massachusetts      MIKE ROUNDS, South Dakota
CHRIS VAN HOLLEN, Maryland           THOM TILLIS, North Carolina
CATHERINE CORTEZ MASTO, Nevada       JOHN KENNEDY, Louisiana
TINA SMITH, Minnesota                BILL HAGERTY, Tennessee
KYRSTEN SINEMA, Arizona              CYNTHIA LUMMIS, Wyoming
JON OSSOFF, Georgia                  JERRY MORAN, Kansas
RAPHAEL WARNOCK, Georgia             KEVIN CRAMER, North Dakota
                                     STEVE DAINES, Montana

                     Laura Swanson, Staff Director

                 Brad Grantz, Republican Staff Director

                 Jeremy Hekhuis, Deputy Staff Director

                 John Crews, Republican Policy Director

                      Cameron Ricker, Chief Clerk

                      Shelvin Simmons, IT Director

                    Charles J. Moffat, Hearing Clerk

                                  (ii)


                            C O N T E N T S

                              ----------                              

                      THURSDAY, FEBRUARY 18, 2021

                                                                   Page

Opening statement of Chairman Brown..............................     1
        Prepared statement.......................................    28

Opening statements, comments, or prepared statements of:
    Senator Toomey...............................................     4

                               WITNESSES

John A. Costa, International President, Amalgamated Transit Union     6
    Prepared statement...........................................    29
    Responses to written questions of:
        Senator Hagerty..........................................    44
Jamael Tito Brown, Mayor, Youngstown, Ohio.......................     8
    Prepared statement...........................................    34
Jyoshu Tsushima, Staff Attorney, Legal Aid Society of Columbus...     9
    Prepared statement...........................................    35
    Responses to written questions of:
        Chairman Brown...........................................    44
        Senator Sinema...........................................    47
Douglas Holtz-Eakin, President, American Action Forum............    11
    Prepared statement...........................................    36
Gianni Cracchiolo, Manager, Sal & Jerry's Bakery.................    12
    Prepared statement...........................................    42

              Additional Material Supplied for the Record

Letter submitted by Coalition of Groups, Activists, and 
  Legislators....................................................    49
Letter submitted by National Taxpayers Union.....................    53
Letter submitted by Nationals Restaurant Association.............    56
Letter submitted by Americans for Prosperity.....................    57
Letter submitted by Rebecca Bodenheimer..........................    59
Letter submitted by Rory Cooper..................................    62
Letter submitted by Dani Ritchie.................................    66
Letter submitted by FreedomWorks.................................    67
Letter submitted by Heritage Action for America..................    70
Statement submitted by The Heritage Foundation...................    72
Letter submitted by Lindsey Holtzman.............................    80
Letter submitted by IAAPA........................................    84
Letter submitted by International Franchise Association..........    86
Letter submitted by Knoebels.....................................    87
Letter submitted by Foundation for Government Accountability.....    89
Letter submitted by Philadelphia Children's Alliance.............    93
Letter submitted by Taxpayers Protection Alliance................    94

                                 (iii)

 
    THE CORONAVIRUS CRISIS: PAVING THE WAY TO AN EQUITABLE RECOVERY

                              ----------                              


                      THURSDAY, FEBRUARY 18, 2021

                                       U.S. Senate,
          Committee on Banking, Housing, and Urban Affairs,
                                                    Washington, DC.
    The Committee met at 11 a.m., via Webex, Hon. Sherrod 
Brown, Chairman of the Committee, presiding.

          OPENING STATEMENT OF CHAIRMAN SHERROD BROWN

    Chairman Brown. The hearing will come to order. The hearing 
is in the virtual format which we have done under Senator 
Toomey and under Senator Crapo a number of times in the past.
    For those joining remotely, there are a few reminders. Once 
you start speaking, both for witnesses and Members, there will 
be a slight delay before you are displayed on the screen. Do 
not let that throw you. Just begin.
    To minimize background noise, please click the mute button 
until it is your turn to speak or ask questions. That will help 
us. If there is a technology issue, we will move to the next 
Senator. Cameron Ricker is so good at this, so he will help you 
fix that. But we will move to the next Senator or witness until 
it is resolved just to keep things moving.
    Each witness will have 5 minutes to speak for your 
statement, of course. For all Senators, the 5-minute clock 
still applies for your questions. You can see the 5-minute 
clock on the screen for most of you.
    At 30 seconds remaining--and Chairman Crapo set this up; I 
think it is a good thing to do--you will hear a bell ring--you 
should each hear it; we will all hear it--to remind you your 
time is almost expired. Some people have trouble seeing the 
clock, so it will ring again when your time has expired.
    And to simplify the speaking order process, Senator Toomey 
and I have agreed to go by seniority, not time of arrival, as 
we do in person, but go by seniority for this hearing. It will 
just be simpler.
    So thank you for going through all that, and welcome to all 
of you to the hearing, Members and witnesses.
    It should not be a surprise that our first hearing is about 
the coronavirus. It has affected every American's health and 
home and family and workplace. It has obviously affected the 
entire economy for nearly the last year.
    On this and on all of the issues to come before this 
Committee, we are going to get to work for all the Americans 
who have not had much of a voice in Washington or in our 
economy.
    Ohioans and working families all over the country know what 
that is like. They have too much experience watching the 
largest multinational corporations thrive, while too often our 
communities, our small businesses, our workers get left behind.
    Long before the Great Recession, our trade and tax policy 
abandoned the industrial heartland and working-class towns and 
neighborhoods all over the country, frankly, too often with 
bipartisan support. Communities from the Mahoning Valley to the 
Mon Valley, from Newark, Ohio, to Newark, New Jersey, all 
watched factory after factory close, with no plan to rebuild 
our local economies. Entire neighborhoods and entire towns 
hollowed out.
    People felt like their hard work no longer paid off. For 
Black and brown workers, it had never really paid off like it 
should. They were the first to be preyed on by shady mortgage 
lenders, the first to lose their jobs, the first to get 
foreclosed on.
    Now they feel like they are watching history repeat itself.
    My colleagues on this Committee have heard me say many 
times that this pandemic has been the ``Great Revealer''. It 
has laid bare what so many Americans already knew: that 
millions of workers have little economic security; they cannot 
get a foothold in this economy, no matter how hard they work.
    So many families are one emergency away from draining what 
little savings they have, or turning to a payday lender, or 
getting evicted.
    If the bus quits running after 10 o'clock and she cannot 
make it to her night shift, she loses her job. If the 
restaurant where he works cuts back his hours, he has to choose 
between paying the rent or paying the electric bill.
    Last year, I was talking to a grocery worker in southwest 
Ohio who told me, ``They call me `essential,' but I feel 
expendable. They do not pay me much, they do not protect me at 
work.''
    It is not a coincidence that many of the workers 
corporations treat as expendable are Black and brown workers; 
so often they are women.
    This pandemic has not just exposed racial disparities and 
income inequality and gender disparities. It has made them 
worse.
    Black and brown Americans are more likely to work in 
frontline jobs that cannot be done remotely, where they are 
more likely to be exposed to the virus and the anxiety that 
they bring home with them. They are less likely to have paid 
leave, making them more likely to lose their job if they get 
sick or if their child gets sick.
    They have less savings to fall back on because of 
generations of wealth inequality. Black small businesses have 
closed at twice the rate of white small businesses.
    The system that has been making it harder for their work to 
pay off and putting their lives at risk for generations--long 
before this virus appeared.
    And as for the toll this pandemic has taken on women, ask 
any mother how she is doing now. Millions of American women now 
have had three jobs for the last 11 months: they are full-time 
caregivers, they are teaching their children, they are doing 
the job they had before the pandemic. And notice, only one of 
those three jobs actually comes with a paycheck.
    For 2.3 million women, they simply cannot do all three. 
They have been forced out of the workforce altogether. That is 
2.3 million families scraping by with less, trying to figure 
out how they will pay the mortgage or pay for health insurance 
or pay for groceries this month.
    It is always the same story. When the biggest corporations 
and the largest banks need help, their allies in Washington 
spring into action. But when the rest of the country needs 
investment and support, they pretend we cannot afford it.
    Today, under new leadership on this Committee, we have a 
clear message: Those days are over.
    We will not settle for less. Black and brown workers do not 
have to settle for a system that treats them and their lives as 
expendable. Mothers do not have to settle for doing three jobs 
with no help. Small businesses like are represented on this 
panel today do not have to settle for scraps while they watch 
corporate profits soar.
    Ohio and the rest of the country do not have to settle for 
a Wall Street-first recovery.
    We are the world's richest country with the world's largest 
economy. We have the resources to rise to meet the challenge 
for everyone.
    That is what President Biden is doing with his rescue plan. 
It is what we will do on this Committee, starting today.
    Our witnesses will make clear the importance of a recovery 
that supports all Americans. We will hear from the president of 
the Nation's largest transit workers union, who is working to 
keep his members safe amidst great difficulty.
    We will hear from a small business owner who is struggling 
to keep his doors open and his workers on the job.
    We will hear from a legal services lawyer from Columbus who 
has spent much of his time trying to help people stay in their 
homes.
    We will hear from the mayor of an industrial town that has 
suffered disinvestment for decades, has been stereotyped by 
national pundits, and is now facing the same challenges as 
cities and towns and neighborhoods in all of our States.
    These are the voices that have been ignored or shouted 
down, even ridiculed by corporate elites, their newspaper of 
record, and too many in Washington. That ends now.
    We will get help to people--all people--to stay in their 
homes and pay their bills. We will keep the doors open at 
minority-owned businesses that entrepreneurs have worked their 
whole lives to build. We will keep our buses and trains running 
and keep those workers on the job.
    It is about recovery, it is about rebuilding. It is about 
empowering all Americans--no matter who you are, no matter 
where you live, no matter what kind of work you do--it is about 
investing in all communities.
    We will show the American people--all people--that for a 
change their Government is on their side. It is time to get to 
work.
    Senator Toomey.

         OPENING STATEMENT OF SENATOR PATRICK J. TOOMEY

    Senator Toomey. Thank you, Chairman Brown.
    Less than a month ago, President Biden made a call for 
unity, and he promised a COVID strategy ``based on truth, not 
politics,'' ``based on science, not denial.'' That is a quote. 
And it is what makes it so disappointing that our Democratic 
colleagues and the White House are pushing this $1.9 trillion 
spending bill. They are using a process that is designed to not 
find common ground, designed to be purely partisan. It is not 
informed by any objective measure of needs. The only organizing 
principle seems to be to spend as much money as possible and 
willfully ignore the adverse impacts of these policies.
    Now, COVID had been an extraordinary crisis, no question 
about it, and Congress responded in an extraordinary way. When 
the Government shut down the economy because of COVID in March 
and April of last year, it produced a crisis that Congress 
responded to with, over the course of last year, five 
overwhelmingly bipartisan bills, almost $4 trillion in relief. 
One of these bills was signed into law less than 2 months ago. 
And now, and for some time now, the economy has been in a 
recovery mode.
    In April, the unemployment rate was 14.8 percent. In 
January of this year, it is down to 6.3 percent, and 18 States 
have unemployment rates below 5 percent. GDP growth in the last 
two quarters has been extraordinary, and the consensus for this 
entire year is to have extremely strong economic growth, could 
be as much as 5 percent.
    Now, there is certainly serious suffering occurring in 
those industries, among workers in the industries that have 
been hard hit: hospitality, travel, entertainment, leisure. But 
this bill is not targeted at them. This bill is a wasteful, not 
at all targeted, and largely unrelated to COVID bill. Just 
consider some of the items.
    The so-called universal stimulus checks, the vast majority 
of the 160 million Americans that have received checks never 
experienced any loss of income. And under President Biden's 
plan, if they follow the eligibility criteria of the first two 
rounds, then there will be families with six-figure incomes, no 
loss of income, and they will receive another $10,000-plus in 
checks.
    Extra unemployment insurance benefits will result in about 
half of all beneficiaries getting paid more not to work than 
they get paid to work. How does that respect the dignity of 
work?
    A minimum wage increase to $15 that the CBO projects will 
cost 1.3 million to 3.7 million jobs and deny so many young 
people especially that first step on the economic ladder.
    We have a witness today, Gianni Cracchiolo, and he is going 
to tell us firsthand the kind of impact on his employees of the 
$15 minimum wage he has been subject to.
    State and local government, another terrible idea driven by 
apparently a desire to bail out fiscally irresponsible cities 
and States.
    Consider this: In the aggregate, State and local 
governments for 2020 took in an all-time record amount of 
revenue.
    Let me say this again: There was no huge collapse of 
revenue. In 2020, State and local governments set a new all-
time record high for revenue. That does not count the $572 
billion that we sent them anyway over the course of last year, 
and now we are told we need to send them another $350 billion 
on top of that.
    Transit, $30 billion. Congress already provided $39 billion 
for transit of which $14 billion was appropriated just 2 months 
ago. We are now supposed to send yet another $30 billion.
    Housing, $40 billion for housing assistance. We provided 
$40 billion in response to COVID and $25 billion for rental 
assistance, again, less than 2 months ago. And that is all, of 
course, on top of the $800 billion the Federal Government has 
provided in stimulus checks and unemployment insurance benefits 
to cover expenses like rents and mortgages.
    So, Mr. Chairman, it is disappointing to me that the 
President's call for unity is starting to ring hollow. All 
five--all five--of the relief bills enacted to do were 
overwhelmingly bipartisan. There is a reason that this one is 
not, and it is because there is no rational economic 
justification for what is in it. This bill is not about COVID. 
It is not about an economic recovery. It is not about stimulus. 
It appears to be more about enacting a longstanding Democratic 
Party wish list.
    The focus of Congress should be working to return the 
economy to the pre-COVID strength we had where we were at 
record low unemployment levels and there were more job openings 
than there were people looking for jobs. That is what we need 
to get back to.
    One of the things that we should be insisting on is that 
schools reopen. The President says he is going to be guided by 
science. Well, the science is in. CDC research shows it is safe 
to reopen schools and it is necessary for the sake of our kids 
that we do so. These closures have been very harmful to student 
performance and well-being in a variety of ways.
    So, Mr. Chairman, I think the focus should be on the 
actions that will help this economy recover instead of using 
the pandemic and the past economic crisis of early last year to 
justify partisan policy priorities.
    Chairman Brown. Thank you, Senator Toomey.
    I will introduce the five witnesses, and then we will begin 
in the order of introduction, so I will start with Mr. Costa. 
After I introduce each of the five of you, Mr. Costa, your 
testimony will go first.
    Mr. John Costa is international president, Amalgamated 
Transit Union. He joined Local 819 in his hometown of Newark, 
New Jersey, as a rail maintenance worker about 40 years ago. He 
was local president for three terms. Following heading the New 
Jersey ATU, in 2010 he became international vice president and 
international president in 2019. Welcome, President Costa. 
Thank you for pushing for better wages and safer working 
conditions for the transit workforce.
    Mr. Jamael Tito Brown is the 51st mayor of the city of 
Youngstown, Ohio. Prior to becoming mayor, he was chief deputy 
treasurer overseeing day-to-day operations of the Mahoning 
County Treasurer's Office. He was director of the Human 
Relations Commission for the city of Youngstown. Last year, my 
entire staff, my personal office and Committee staff, met with 
Mayor Brown where he led a panel discussion about challenges 
facing Ohio cities, and we know that there are many of those. 
Welcome, Mayor. Nice to have you.
    Mr. Jyoshu Tsushima has been staff attorney at the Legal 
Aid Society of Columbus, Ohio, with the housing team at the 
Legal Aid Society since December of 2016. Columbus is the 14th 
largest city in the country. Thousands of its residents are 
struggling to pay their rent, pay their mortgage, pay their 
electric bill. They opened an eviction court in the Columbus 
Convention Center. Mr. Tsushima is a strong advocate for 
educating tenants who have to face that court in understanding 
how housing relates to everything else in people's lives. 
Welcome, Mr. Tsushima. Nice to see you.
    Mr. Douglas Holtz-Eakin is president of the American Action 
Forum. He served in a variety of policy positions inside and 
outside of Government: Chief Economist at the Council of 
Economic Advisers; Director of the nonpartisan Congressional 
Budget Office; the first time I ever interacted with him, he 
was director of domestic and economic policy for the McCain 
Presidential campaign; and a Commissioner on the Financial 
Crisis Inquiry Commission. Dr. Holtz-Eakin, I know we do not 
always see issues the same way, but I thank you always for your 
passionate defense, as the Ranking Member does, too, and we 
welcome you back to our Committee.
    Last, a man whom I have never met, Mr. Gianni Cracchiolo is 
the manager of the family owned Sal & Jerry's Bakery in West 
Babylon, New York. Sal & Jerry's Bakery is a retail/wholesale 
bakery that supplies the public and distributors with Italian 
cookies, pastries, and bread. Welcome, Mr. Costa, to the 
Banking, Housing, and Urban Affairs Committee, and thank you 
for joining us and sharing your story, which is very important 
to us.
    So, Mr. Costa, you can begin. Thank you.
    You are on mute.

     STATEMENT OF JOHN A. COSTA, INTERNATIONAL PRESIDENT, 
                   AMALGAMATED TRANSIT UNION

    Mr. Costa. OK. Every time I hit it, he hits it. All right. 
It looks good.
    Mr. Chairman, thank you for the opportunity to testify here 
today. I am ATU International President John Costa.
    Transit workers have been true heroes during this pandemic. 
They put their lives on the line each day to keep America 
moving. On behalf of the entire transit industry and our 
riders, thank you for providing the funding necessary for 
transit to survive. Without the $39 billion in emergency aid, 
we would have come to a grinding halt.
    The buses and trains have kept running, so grocery store 
workers keep the shelves stocked, child care workers keep our 
kids safe, and nurses keep us alive. You have also saved our 
members' jobs, and we are all sincerely grateful.
    Of course, the down side of staying on the job as a bus 
operator is that you are continuously exposed to COVID. It is 
no surprise that thousands of transit workers have tested 
positive. We drive tin cans with bad air circulation. One 
hundred thirty-five ATU members have died from this virus. TWU 
has lost even more. Nearly 300 families will never be the same.
    It did not have to be this way. With the proper 
precautions, transit service can be delivered safely. But the 
previous Administration let us down from the beginning. FTA 
told us that masks were not recommended. We pleaded with them 
to get PPE to the transit systems. They ignored us. So we went 
out and got gloves and masks ourselves.
    We also asked for help on social distancing, contact 
tracing, and other protective measures. But FTA watered down 
the CDC guidelines. So each day, more of our members and 
passengers died.
    We are still paying the price. President Biden was left 
with no plan to get shots into arms and no reserves. In my home 
State of New Jersey, transit purchased refrigerators to store 
the vaccines so our members can get the shot right onsite. But 
they have been empty for more than a month. So we wait for the 
shots, putting our lives on the line every day. And yesterday, 
another New Jersey transit operator, our member, passed away 
due to COVID-19.
    In addition to driving a bus, our members are also ``mask 
police.'' They get attacked for enforcing the rules and trying 
to stop the spread.
    We had a baseball bat beating in California. We had a two-
by-four attack in Texas, a bone-breaking sucker punch in New 
York. It is happening everywhere. President Biden's mask 
mandate is a great start. We just need help enforcing it.
    Social distance on a bus is very hard to do. Passengers in 
many locations are allowed in the front row, too close for 
comfort, and we are now collecting fares. A lot of our buses 
have shields due to COVID. Most are better than nothing, but 
still leave a gap exposing us to attacks. Our maintenance and 
cleaning members do amazing jobs wiping down and cleaning the 
services and our buses. While ridership is way down, buses are 
still jammed in cities where people do not have a choice, not 
just places like Newark where I am from. It is the Midwest, the 
South. People have to go to work. They still have to come to 
work. And they do not have a car. Essential workers like health 
care workers, service job workers, grocery store workers, and 
people who clean buildings, mostly of color--Blacks lag behind 
whites in receiving the vaccine, and it is not just because 
many are suspicious of the Government. Access is a key factor, 
and transit plays a huge role. So transit systems across the 
country are now giving free rides to vaccination sites, and our 
members are proud to play a part in this effort.
    But we cannot do this without funding. That is where you 
come in. Local funding and fare box revenue are way down. We 
are going to need Federal operations to assist for a long time. 
ATU joins APTA calling for an additional $39.3 billion in 
emergency funding. We appreciate the $30 billion in the new 
bill and hope it gets spread around the whole country. We need 
to continue to provide essential service in places like 
Pittsburgh, Providence, Charlestown, Boston, Baltimore, 
Nashville, Atlanta, and, of course, Youngstown. And I want to 
give a shout-out to ATU Local 272 and everywhere in between. 
Without us, transit-dependent people will suffer, and more will 
die due to this pandemic. We cannot leave anyone stranded.
    Also, Congress should do the right thing and provide hazard 
pay for all frontline workers who have put their lives on the 
line during this pandemic. People call us ``heroes,'' but at 
the table we are ``zeros.'' We cannot change what has happened 
in the past. Our members and our passengers we have lost are 
not coming back. But we continue to support for transit a 
strong Federal role in enforcing the safety measures and a seat 
at the table for workers to express their COVID concerns. We 
can work our way through these challenges and safely deliver 
the transit services that transit needs.
    Thank you.
    Chairman Brown. Thank you very much, Mr. Costa.
    Mayor Brown, welcome to the Committee.

    STATEMENT OF JAMAEL TITO BROWN, MAYOR, YOUNGSTOWN, OHIO

    Mr. Brown. Thank you, Chairman Brown and Ranking Member 
Toomey, for inviting me to testify before the Senate Committee 
on Banking, Housing, and Urban Affairs. I am Jamael Tito Brown, 
the mayor of the city of Youngstown. We are a small city in the 
Midwest of a population of about 67,000.
    This is the 44th year since the closure of steel mills in 
the city. As a legacy city, we have faced a history of 
corporate corruption and political corruption causing 
governmental mistrust among our community.
    My Administration has had to overcome obstacles. Inadequate 
educational resources and a lack of livable wage jobs have 
always been historical problems in our community. A further 
hindrance in the efforts for recovery is the decline of the 
housing stock and transportation for those who need access to 
employment.
    The current global pandemic has hit this community harder 
than ever. COVID-19 has been a great revealer of the health, 
social, economic, and racial disparities of our community. 
Small to medium-sized businesses are also feeling the impact of 
the pandemic, especially minority-owned businesses, many of 
whom did not have an established relationship with a banking 
institution prior to the pandemic.
    The needs of the city of Youngstown are no different from 
other communities across the Nation. When a city is barely 
rebounding from 50 years of economic decline because of outside 
forces beyond our control, those rebounds have been further 
eviscerated by COVID-19. Whatever Federal assistance is 
provided must be a long-term coordinated strategy to get the 
resources we need to address the public health impact of COVID-
19 and assure that housing, transportation, and small business 
efforts are included in a Federal rescue plan. If any component 
is ignored, the entire community structure will likely fail.
    Our Ohio cities particularly have been hard hit by the 
economic downturn of this pandemic. This is because cities in 
Ohio rely on a municipal income tax as our primary source of 
revenue. This tax source is much more susceptible to economic 
conditions as opposed to more stable sales or property tax 
revenue streams.
    Youngstown has seen this impact firsthand. We are the 
county seat of our county, Mahoning County. We have one of the 
highest unemployment rates in the State, ranking 75th out of 88 
in the counties. When unemployment is up, tax revenue is down. 
These economic challenges have ripple effects all across our 
regional economy--from housing, to public transit, and the 
economic activity that sustains our small businesses.
    In order to truly recover from the pandemic, relief has to 
happen in our neighborhoods and our community where they not 
only survive but they must thrive. Cities do not have an 
opportunity to flounder for another 50 years.
    A Federal rescue plan must include assistance to help build 
back better legacy cities like Youngstown, Ohio. It should 
include, as outlined by President Biden: assistance for the 
production and distribution of COVID-19 vaccinations; rental 
assistance for families; transit assistance to keep buses 
running so essential workers can continue to work; direct 
revenue replacement for cities; and small business support so 
hardworking business owners can keep their workforce.
    The relief should be flexible and free of bureaucratic red 
tape so that the pace of recovery is not stymied by Federal 
mandates. Transparency of local government spending should be a 
guiding mandate to reinforce accountability and build trust 
with communities.
    Small cities need assistance. Small cities need assistance 
quickly. Small cities need assistance desperately. Local 
municipalities need direct revenue replacement like the $350 
billion proposed by President Biden.
    The impacts of COVID-19 are still affecting many of my 
citizens I represent. Families are still hurting. We need 
immediate relief during these difficult times. I urge you to 
think of this as part of a long-term sustainable recovery plan 
to build back and create thriving communities.
    Thank you, Mr. Chairman.
    Chairman Brown. Thank you, Mayor.
    Mr. Tsushima, please proceed. Thank you.

STATEMENT OF JYOSHU TSUSHIMA, STAFF ATTORNEY, LEGAL AID SOCIETY 
                          OF COLUMBUS

    Mr. Tsushima. Chairman Brown, Ranking Member Toomey, and 
distinguished Members of this Committee, thank you for inviting 
me today to speak. My name is Jyoshu Tsushima, and I am a staff 
attorney at the Legal Aid Society of Columbus, an Ohio 
nonprofit that provides legal assistance to low- income 
clients.
    I run our eviction prevention clinic, the Tenant Advocacy 
Project, where my team and I represent tenants in eviction 
trials at Franklin County Municipal Court.
    Every morning, Monday through Friday, we watch tenants and 
landlords check into court. About 90 to 100 eviction trials are 
scheduled per day, all for 9 a.m., before one magistrate. Our 
court uses a ``cattle call'' system, where tenants, families, 
landlords, and attorneys wait in an atrium for cases to be 
called one at a time for trials that typically last only a few 
minutes. My team tries to help as many families as we can and 
scramble for solutions that will keep them housed, while 
partner agencies try to connect them with rental assistance. 
But this is not always enough, and many tenants still end up 
being evicted.
    Even before the pandemic, over 54,000 low- and moderate-
income households in central Ohio spent more than half of their 
income toward housing. When these renters lost their jobs or 
their hours were cut due to the pandemic, they were forced to 
rely on erratic spurts of stimulus checks, unemployment, and 
rental assistance, with little certainty about how much would 
come or when it would arrive.
    Not everyone is guaranteed assistance because there just is 
not enough to go around. Even when assistance is available, 
many low-income people are just paying off old debts, leaving 
nothing to pay next month's rent. They are not hanging by a 
thread; they are constantly waiting for one to be thrown down 
to save them.
    Being ill from COVID only makes it worse. Tenants cannot 
pay rent when they catch COVID and miss work. Tenants cannot 
even attend court when COVID puts them on a ventilator. We 
recently asked a landlord's attorney to reschedule a case until 
our hospitalized tenant was well enough to attend. The attorney 
refused and replied that, although unfortunate, they would 
still proceed with evicting the tenant because that is the 
right of the property owner and that is how it always has been.
    Eviction moratoriums are effective in preventing these 
scenarios and the spread of COVID, but only if they are 
enforced. The moratoriums under the CARES Act and CDC have 
provided tremendous relief to many tenants. However, both 
moratoriums have had loopholes that have allowed devastating 
levels of evictions. The CARES Act moratorium had little 
oversight and delegated enforcement to the self-regulation of 
landlords. Current guidance for the CDC moratorium allows 
landlords to continue filing evictions.
    If a tenant asks our court for protection under the CDC 
moratorium, the tenant must pass a ``truthfulness'' hearing to 
prove that they are truly poor enough to qualify. One of our 
clients lost his job due to the pandemic and was supporting 
himself and his two kids on $98 weekly unemployment checks. His 
landlord filed an eviction against him for failing to pay rent. 
At trial the landlord's attorney grilled him on why he could 
not spend any of his unemployment toward rent. Our client 
responded that it all went to food and utilities. The attorney 
then argued to the court that our client should have paid some 
of the unemployment toward rent. The court declined this 
argument and imposed the moratorium; however, the landlord then 
filed a new eviction against our client, claiming that he was 
now a holdover tenant.
    This client was one of the lucky ones. Over 4,000 evictions 
were filed in our court between September and December of 2020. 
Less than 20 of them were actually halted by the moratorium.
    Evictions and COVID are also hitting our Black communities 
the hardest. About 60 percent of our clients at eviction court 
are Black, while Black residents make up only 24 percent of 
Columbus' population. You are also twice as likely to die from 
COVID if you are Black than if you are white. None of my 
clients chose their race or to be born poor or to die more 
easily from COVID. The rest of us, however, have a choice in 
either taking action or being bystanders to the consequences of 
this pandemic.
    We need more aggressive interventions, including reliable 
rental assistance and effective eviction moratoriums. An 
estimated 272,000 to 552,000 Ohio families are at risk of an 
eviction without such intervention, while 7 to 14 million 
households nationwide face the same peril.
    These numbers do not even account for the millions of 
homeowners facing similar threats through foreclosures. 
Widespread displacement of these families will devastate our 
Nation for years to come. We must do more to ensure that 
everyone has a home, not just because it is right but because 
it is necessary.
    Thank you, and I look forward to your questions.
    Chairman Brown. Thank you, Mr. Tsushima.
    Dr. Holtz-Eakin, proceed. Thank you.

 STATEMENT OF DOUGLAS HOLTZ-EAKIN, PRESIDENT, AMERICAN ACTION 
                             FORUM

    Mr. Holtz-Eakin. Chairman Brown, Ranking Member Toomey, and 
Members of the Committee, thank you for the privilege of being 
here today.
    To date, the response of Congress to the COVID-19 recession 
has been remarkable. It has been appropriately times, 
appropriately scaled, and had the appropriate targeting and 
composition.
    Unfortunately, the American Rescue Plan does not meet any 
of those criteria, at least not to my eye. It is not 
appropriately timed. This is not March of 2020 when the economy 
was falling at an annual rate of over 30 percent. Since then, 
recovery has begun. We had strong economic growth in the third 
and fourth quarters of 2020. The CBO projects that in 2021 the 
economy will grow at 4.6 percent. And current estimates are 
above that. The Federal Reserve Bank of New York has a Nowcast 
estimate for the first quarter of this year at 6.7 percent. The 
Federal Reserve Bank of Atlanta has its GDPNow of 9.5 percent. 
So this is not an economy that is in recession and needs 
stimulus. It is an economy that is growing rapidly and just 
received nearly $1 trillion of Federal support in December of 
last year. So the timing seems off.
    It is not an appropriate scale. $1.9 trillion is just way 
too large, even given the advocates of the need for stimulus. 
The problem, according to the Congressional Budget Office, is 
that the economy is roughly $450 billion--in 2012 dollars, but 
roughly $450 billion below its potential because we have 
millions of people out of work, and this is a $1.9 trillion 
response to that problem. It is far too large. The theory of 
stimulus is that when there are multiplier effects, a dollar of 
Federal spending will deliver more than a dollar of additional 
economic activity and income. As I say in my written testimony, 
if you assume the multiplier is well less than one-half--the 
economy will overheat by the end of this year if we put $1.9 
trillion in stimulus in. So the scale is all wrong.
    We are not sure of some of the elements of the plan as 
well. The Ranking Member noted the housing assistance in this 
bill. Combining the housing assistance from December with the 
additional proposed in this bill would give you something that 
is roughly double the problem, as I estimated, and that ignores 
any income support those same individuals may have gotten 
through the unemployment insurance, the economic support 
payments, the checks that the households have received. So the 
scale seems wrong for the problem that we have.
    The composition and the targeting is at odds with the basic 
idea. Certainly I do not think it should be thought of as 
stimulus. The real problem is the recession came from the 
disease. It is the coronavirus that is the problem. What we saw 
in March and April of 2020 is people stopped spending on 
services. They did not go out and engage in any service that 
would involve personal contact and, thus, the risk of infection 
and transmission. In particular, the affluent households in 
America dropped their spending dramatically. That spending has 
not returned, and there is nothing in this bill that would 
restore the spending of those affluent households. There is not 
a UI provision; there is not a check. There is not any of those 
elements that add up to $1.9 trillion that will solve that 
problem. That problem gets solved only by addressing the virus 
itself. We should support every effort on vaccination, on 
testing, on contact tracing, and on fighting the coronavirus, 
and that in the end will restore the economy, and these will 
not. That spending still remains missing in action.
    There are other compositional issues. This is not targeted 
on those who have suffered any financial distress. It is a 
broad-based program. The composition of some of the elements I 
think are at odds with good economics. Raising the Federal 
bonus on unemployment insurance to $400 a week is simply too 
large, and extending it through the end of the summer when we 
expect the labor market to have been restored to functioning 
because of the vaccination efforts really will interfere with 
recovery and not support it.
    There is nothing about raising the minimum wage to $15 an 
hour in the middle of this that will enhance recovery. It will 
damage the small businesses, a quarter of which have already 
shut their doors in America. And there are things in here that 
have nothing to do with COVID-19, with recovery from recession. 
It contains a bailout of the multi-employer pension plan that 
is a disappointment given the bipartisan efforts to do that in 
a sensible fashion. It contains expansions of the EITC and 
child credits, for example, that look like permanent policy. It 
might make sense, but it has nothing to do with COVID-19.
    So I find this a disappointing effort. The Congress has 
done so well in responding to COVID-19 thus far, and I would 
encourage the Committee to look in another direction.
    Thank you.
    Chairman Brown. Thank you, Dr. Holtz-Eakin.
    Mr. Cracchiolo, welcome to our Committee. Thank you.

 STATEMENT OF GIANNI CRACCHIOLO, MANAGER, SAL & JERRY'S BAKERY

    Mr. Cracchiolo. Chairman Brown, Ranking Member Toomey, and 
distinguished Members of the Senate Banking Committee, thank 
you for the invitation to testify today.
    I am Gianni Cracchiolo. My family owns Sal & Jerry's Bakery 
in New York. Sal & Jerry's Bakery is a retail and wholesale 
bakery that supplies the public with Italian baked goods. My 
father and his cousin, immigrants from Italy, founded Sal & 
Jerry's Bakery in 1983 in Bensonhurst, Brooklyn.
    Our bakery was a staple in our community for nearly 40 
years until we were, unfortunately, forced to close our doors 
in August of 2020. This bakery was our family's legacy, one 
filled with an entrepreneurial spirit, and rich with tradition, 
culture, and love. It was the quintessential American Dream for 
immigrants who came to this country to provide a better life 
for their families.
    Minimum wage hikes and other State and Federal regulations 
acted as a silent killer that slowly chipped away at revenue 
and caused our bakery to perish. COVID-19 and the ensuing 
lockdowns were not the main cause of our closure, but were the 
straw that broke the camel's back. Coronavirus should not be 
used as the scapegoat by policymakers to further ignore the 
fact that small businesses are vanishing in this country due to 
Government regulations making it difficult to succeed.
    The decline in growth and long-term viability of our bakery 
became evident during the first few years of minimum wage 
increases in New York. At our retail bakery, we had three tiers 
of wages. The first tier was our night bakers, who got paid a 
premium for shift differential. The second tier was day shift 
bakers, and the third tier was general laborers. General 
laborers are product packers, retail counter service, and 
maintenance workers. These were individuals who typically 
consist of working students, entry-level employees, and hourly 
staff. These individuals started at minimum wage as they began 
to learn the trade and advance in their roles.
    As Tier 3 minimum wage employees' pay increased $1 per 
fiscal year, wages began creeping up to the Tier 2 wages, and 
this is where the problem started. You cannot justify the fact 
that working high school students or entry-level employees with 
no prior experience should be making the same wages as 
experienced staff. It is neither fair nor ethical. As years 
passed, my Tier 2 workers began to take notice of the minimum 
wage increases and demanded more pay to compensate for their 
experience and skill. It was soon a domino effect when the 
first-tier employees wanted raises. We found ourselves with our 
backs against a wall in a situation where all salaries needed 
to increase. This crippled us.
    To put it into perspective, each year that the minimum wage 
increased $1, payroll for the year went up $40,000. Multiply 
that by the number of years it has gone up; we are now at 
$120,000 total. This chokehold was something that a small 
bakery could no longer withstand. I needed to make up for these 
increases, and the only way to do so was to pass it onto our 
consumers. How much is someone willing to pay for a loaf of 
bread or a pound of cookies? At some point, people who are used 
to paying a certain price for a loaf of bread are going to 
start to complain, and that is exactly what they did.
    Customers began to shop for their baked goods at 
supermarkets and large box stores. These stores offered lower-
quality versions of our products at a price point that 
customers were comfortable with. The corner bakery where they 
used to get their daily bread was now a luxury item only to be 
bought on special occasions and holidays. The big businesses 
benefited greatly from the minimum wage increases and continued 
to see their valuations explode. They garnered more customers, 
our customers, and replaced half of their minimum wage staff 
with electronic kiosks and part-time help. It was a win-win 
situation for big business.
    To add insult to injury, in 2020 the CARES Act provided 
additional unemployment incentives to our employees exceeding 
their regular pay. We essentially lost our entire staff from 
March until July because employees were making more money 
staying at home claiming unemployment than coming into work. 
Even though we received nominal assistance from the Paycheck 
Protection Program, we called on our employees to return to 
work, yet they did not. The Economic Injury Disaster Loan 
assistance we received did not even cover 1 month's expenses. 
It became impossible to retain my workforce, maintain 
productivity, and turn a profit. I had no choice but to close. 
The Federal Government provided more to help for people to stay 
home rather than help businesses stay open.
    Small businesses create about 80 percent of the jobs in 
this country. They are the backbone of America. If small 
businesses continue to close their doors, this country will be 
harmed economically.
    Thank you for the opportunity to share our experience, and 
I look forward to any questions.
    Chairman Brown. Mr. Cracchiolo, thank you for your 
testimony.
    Let me start the questioning with Mr. Costa. I want to 
first express my condolences to the hundreds of transit workers 
across this country. I know 155 of your members have passed 
away from COVID, and I know hundreds of other transit workers 
in other unions, TWU and others, so we send our condolences for 
all of the sacrifice they make.
    Talk, if you would, about transit systems and the dire need 
they face. In my State, the Governor's budget cuts transit 
dollars from $70 million down to $7 million. These cuts clearly 
would have an impact not just on the drivers but on the public 
that needs transit to get to work.
    Explain why further resources are so essential to the 
transit systems, writ large, around the country, if you would, 
Mr. Costa.
    Mr. Costa. Yes, Mr. Chairman. Look, with the restaurants 
closed down, the bars closed down, the revenue is not there. 
The tax revenue is hurting the States and the cities, and the 
last bailout gave us the opportunity to keep the jobs, keep the 
buses on the road. And if we do not have another bailout, it is 
just going to go back to the way it was.
    Right now, many of our authorities are waiting for this 
funding. They need this funding. They are holding back on their 
budgets to see what is coming out. If they do not get--and the 
reason I am saying ``waiting,'' just because if they do not get 
what they are waiting on, it is layoffs, cuts in service, which 
will just hurt the economy, hurt the people that have to rely 
on transit, like we spoke before. So the need is there for more 
funding for transit, and it is needed badly and quickly.
    My own State of New Jersey, they do not know whether they 
are going to lay off. Many other agencies are the same way.
    Also, to keep the PPE and the buses safe, I mean, they need 
that money for that equipment, you know, the infection, the 
masks, the supplies are needed.
    You know, it is funny. I listen to this, and when we are at 
war, nobody is debating on funding. You know, trillions are 
spent. But when it comes to war on our own turf here with this 
virus, we have this debate.
    Americans need this. My family, you know, they have small 
businesses, too, and everybody has been hurting. And it is up 
to Government to help us here and keep our members safe and 
have no more of them dying. Also, vaccines are much needed, 
especially to my members every day out there moving the front 
lines.
    Chairman Brown. Thank you, Mr. Costa.
    Mayor Brown, how has the pandemic revealed disparities in 
minority-owned businesses in Youngstown?
    Mr. Brown. It has been a great revealer. It has really 
exposed the underlying health issues that we talk about. But it 
really put a focus on those with underlying health issues in 
the minority community. They are dying at a greater rapid pace 
because of these underlying health issues. But it also is the 
issue of having access to health care, appropriate and better 
health care in their community, or the lack of good health care 
in the community has been the issue for us. So the health issue 
has been a major, major issue to deal with in our community.
    Chairman Brown. Thank you.
    Mr. Tsushima, in the last minute and a half--and I am sorry 
to squeeze your time--I am guessing that most members of this 
Committee or at least most Members of the Senate do not know 
intimately people--maybe a couple of people, but generally do 
not know people who have been evicted. Describe what happens to 
your clients' lives when--first, the threat of eviction and 
then actually eviction, what happens to a family?
    Mr. Tsushima. Yes, Senator. It makes it very difficult for 
families to just be able to operate with any normal 
expectation. Kids cannot do their schooling because they are 
bouncing around between places that they end up moving out. You 
cannot even cook a hot meal anymore if you get evicted. It 
creates so much chaos for families when they are being 
threatened to be kicked out or they are actually evicted. And 
these sort of consequences just add years to actually recover 
on. If a kid--you know, children, when they actually have to 
leave school, it often puts them behind, and that has long-term 
consequences in the future for their ability to become employed 
or go to college. And there is a lot of statistical evidence 
tying that to negative health outcomes, increased rates of 
crime, and it is such a systemic impact just from [inaudible].
    Chairman Brown. Go ahead. I am sorry. Finish your sentence.
    Mr. Tsushima. I did.
    Chairman Brown. I am sorry. OK. Thank you.
    Senator Toomey.
    Senator Toomey. Thank you, Mr. Chairman. And I cannot see 
the clock, so maybe if we could make whatever adjustment. I 
think we have tried to do that in the past, so that would be 
helpful if it is possible.
    Let me pose my first question to Dr. Holtz-Eakin. You know, 
the fact is in 2020 in the aggregate income did not collapse. 
Employee compensation was up 2 percent, wages and salaries up 
2.2 percent. This is during the peak of the pandemic. The 
savings rate reached an all-time record high, and transfer 
payments were at an all-time record high.
    So, Dr. Holtz-Eakin, let me just ask you this directly: Is 
it your view that the Federal Government's policies more than 
replaced the total lost income of American workers last year?
    Mr. Holtz-Eakin. Thank you. I was muted by the host. Sorry. 
Yes, we saw average income rise over 2020, and this is not an 
income-related recession. It is the virus itself which has 
inhibited economic activity.
    Senator Toomey. Right. So if we do another round of 
stimulus checks, first, do you agree with my assessment that a 
majority of those checks end up going to people who never had 
any lost income, no interruption of income? And, second, is it 
your view that that is not constructive for the economy for the 
Government to be just arbitrarily sending money to people who 
have never had any lost income?
    Mr. Holtz-Eakin. Well, there is no targeting on lost income 
in this proposal, and the vast majority will go to people who 
have never had a day of interruption and are actually 
relatively affluent. So that does not make a lot of sense in 
these circumstances. And there is a risk. I think for me the 
big risk is that we will see that money flow into, first, 
savings accounts and then, well, maybe I can get a little more 
yield if I go into the stock market, and, you know, maybe I can 
do a little bit on my RobinHood app with some puts and calls. 
21st century recessions have been preceded by financial 
volatility, and I worry about the implications of hundreds of 
billions of dollars sloshing around financial markets for no 
good reason.
    Senator Toomey. Yeah, we are seeing some very strange 
things in various assets prices.
    Let me ask about on the housing side the eviction 
moratorium and rental assistance. I would like to stress we 
have already allocated $1 trillion in direct assistance to 
individuals, and that is a big part of why in the aggregate 
household income is so high.
    Let me ask you this: If landlords come to the conclusion 
that they will at least periodically be in a position where 
they have no enforcement mechanism on collecting rent, what is 
the likely effect on the supply of housing and the cost of 
housing in response to that reality?
    Mr. Holtz-Eakin. Being a landlord will be a bad business to 
be in, and they will exit, and we will have less in the way of 
housing supply, and it will be much more expensive. In urban 
areas historically, that is going in the wrong direction where 
affordable housing is at a premium.
    Senator Toomey. So the short version is less supply and 
higher cost for low-income housing?
    Mr. Holtz-Eakin. Yes.
    Senator Toomey. Let me ask a question of Mr. Cracchiolo. I 
want to be clear about something. When the unemployment 
benefits were increased to the point where most workers got 
paid more not to work than they got to work, did that create a 
difficulty for you in retaining your workforce?
    Mr. Cracchiolo. Absolutely, and thank you for your 
question. It was difficult because when employees are getting 
paid more to stay home, why come back to work? And with the 
policy our Governor put in place, you had to accept these 
employees when they came back to work. You guaranteed their 
positions. It is difficult when you have to try to prove if an 
employee has contracted the virus or not. I was given no 
evidence, and when I contacted the Department of Labor--or they 
contacted me telling me which employees were collecting 
assistance, even after they had told me, I had been in contact 
with someone--well, they automatically get 2 weeks at home, and 
then in those 2 weeks they apply for the assistance, and they 
stayed home until July.
    Senator Toomey. We are about to run out of time, so just 
very quickly, I just want to be clear. The minimum wage that 
you are subject to and if that were to be rolled out 
nationally, is it your view that that does not affect equally 
small and large businesses but, rather, puts the small 
businesses at a competitive disadvantage?
    Mr. Cracchiolo. Absolutely, Senator. Small businesses 
cannot do the things that big businesses are able to do to 
compensate for those wage increases. One of those things is big 
businesses can put kiosks out, self-service stations, and 
customers can pick up and pay and not even be in contact with 
any employee at all at those big-box stores. Small businesses 
cannot do that, especially good service businesses. I find that 
that is going to be a very large gap in the future between 
small businesses and big business, and big business is going to 
benefit.
    Senator Toomey. Thank you. I think I am out of time, so 
thank you very much.
    Chairman Brown. Thank you.
    Senator Reed of Rhode Island.
    Senator Reed. Thank you very much, Mr. Chairman, and I 
thank the panelists.
    Mr. Tsushima, thanks for your good work helping people, and 
I think we have all concluded that one of the best forms of PPE 
is safe, affordable housing. And we have looked in Rhode 
Island, and we discovered that among the homeless population, 
in dollars and cents, their annual Medicaid cost is about 
$14,000 compared to the average cost of about $8,200. So if you 
are on the street, you are costing everyone more money as well 
as exposing yourself to the COVID virus.
    So can you just tell me, because you are so close to it, 
what are the real costs to families and communities if we do 
not do more to help them? I know there is discussion about 
income growth, et cetera, but that is not even across the 
population. Low-income people are not seeing some of the same 
benefits that higher-income people are in terms of income 
growth. But from your perspective, what is the impact if we do 
not act?
    Mr. Tsushima. Thank you, Senator Reed, for that question. 
The biggest consequences that we see is just instability with 
families and instability with communities. If you have a 
community that is suffering high rates of eviction and high 
rates of displacement, you see a lot of displacement that 
disrupts the community's ability to actually network and have 
members contribute to growing the community, looking at the 
problems that they have, and addressing them.
    You know, if you are evicted, you do not even have the 
chance to be a neighbor with somebody, and those are things 
that are absolutely crucial with people organizing around the 
challenges that they are dealing with as a community. And what 
we see here in Columbus is a lot of the evictions are very 
concentrated in specific Zip codes, and they tend to be Black 
neighborhoods as well. And it affects so many different aspects 
of our society that it is very difficult to even figure out 
where to start.
    One of the statistics that I saw recently was that Ohio 
experienced an increase of about 16 percent in child 
homelessness between 2015 and 2018. And those homeless children 
end up experiencing a lot of problems that are by no means 
their own fault, and it is something they are going to have to 
live with for the rest of their lives. They are not getting the 
good education they need. They are not getting the shelter they 
need. They are not getting the health care they need. And these 
are all things that create new barriers for them that they have 
to figure out how to overcome on their own in order to even 
have a fair chance at just being a resident of Columbus. These 
are things that we really should not expect, especially kids, 
that we should not be expecting people to have to figure out on 
their own.
    I think Columbus has been one of the fastest-growing 
communities in the Nation. We certainly should have the 
resources to be able to address these problems. But I think 
oftentimes we have this mind-set that everyone is individually 
responsible for figuring out how to lift themselves by their 
own bootstraps, but a lot of these impoverished communities do 
not even have any bootstraps laying around.
    So that is one small example of different problems that 
these families and communities are dealing with. I mean, I 
could go into, you know, how this affects employment when 
tenants do not even have stable housing to return to to rest 
after they have worked, or once they get evicted, they end up 
having to drive further away because they moved in with a 
family member across town. There are just so many different 
things that----
    Senator Reed. Thank you. Just a quick word. I want to thank 
John Costa and his colleagues. We are grateful for what you 
have done, particularly up here in Local 618 and Local 1363, 
and Nick DeCristofaro and Gil Mendonca are terrific leaders.
    One issue we are pushing--I will just make the comment. I 
will not ask the question. Senator Collins and I introduced the 
Coronavirus Economic Relief for Transportation Services to help 
the private bus industry and school buses, which are critical 
parts of our economy--we helped the airlines. We hope we can 
help these transportation networks, too, but I just want to 
thank you and your colleagues for your great work. So thanks, 
John.
    Thank you, Mr. Chairman.
    Chairman Brown. Thank you, Senator Reed.
    I see the names on the screen, in seniority order, Senators 
Crapo and Rounds and Tillis. Are they actually here? If they 
would turn their cameras on. If not, Senator Daines of Montana 
is next. Senator Daines, welcome.
    Senator Daines. Thank you, Mr. Chairman. And I want to 
thank you for hosting this very important hearing today.
    These last 12 months have been really tough, certainly for 
Montanans and for Americans across the country. Thankfully, 
however, I do think we are finally turning the corner. We see 
that through economic data. We see that through the COVID data. 
This is in no small part due to the five--five--bipartisan 
bills that Congress has passed this last year to help our 
country recover. And we have passed these five bipartisan 
relief bills, and it is just frustrating to see my colleagues 
on this side of the aisle trying to push forward a partisan $2 
trillion bill instead of continuing to work across the aisle on 
a relief package, which we have done successfully over the 
course of last year five times, and target a package that 
really helps the folks that need it the most. And it has just 
been less than 2 months ago we passed a nearly $1 trillion 
relief bill of which only about 50 percent has been spent so 
far. Fifty percent.
    Right now, we should be focusing our efforts tracking where 
that money is going, where more money might be needed, and also 
where it is not needed. Any future relief must be targeted to 
those that truly need it the most.
    One part of the package that certainly is not needed is a 
proposal for $350 billion for State and local aid. I hope we 
have not become desensitized to the size of these numbers. 
Think about the overall discretionary budget of the Federal 
Government. The entire budget is $1.4 trillion. So this kind of 
shows the magnitude of what we are talking about here.
    And, in fact, in 2020, we enacted approximately $360 
billion in aid to State and local governments. I supported 
those packages that included that aid. However, when the State 
and local aid was passed, there were a lot of unknowns. The 
pandemic, of course, had just started. Now it has been about a 
year, and we do know that in 21 States, as the Ranking Member 
mentioned earlier, 21 States actually had revenue growth 
compared to 2019. In fact, California specifically is looking 
at a $25 billion surplus.
    So what we do know now is that $350 billion more for State 
and local aid is not needed to help combat the pandemic. It is 
not needed to make up for lost revenue because of the virus. 
Revenues are up. What this new pot of hundreds of billions of 
dollars is actually doing is going to help States that, prior 
to the pandemic, like New York and Illinois, had fundamental 
fiscal problems, of course, prepandemic. And I do not believe 
Montanans should be footing the bill--Montana taxpayers--to 
help States get out of long-term financial problems.
    The first question for Dr. Holtz-Eakin: Is there any way to 
justify sending an additional $350 billion to State and local 
governments?
    Mr. Holtz-Eakin. I do not think so. I would commend you to 
the work of Louise Sheiner at the Brookings Institution who has 
done a very detailed State-by-State analysis of the property 
taxes, income taxes, corporation income taxes, sales taxes, and 
other fees and does not come close to that number and, 
moreover, shows that the differences are very stark across 
States. And so if there is need for some State assistance, it 
should, like everything in this, be more targeted on places 
that generally have had a problem.
    Senator Daines. So I think something we all agree with is 
that we have got to ensure there is enough money for vaccines 
and vaccine distribution. You know, I worked for Procter & 
Gamble prior to coming to Congress. I used to work on FDA-
regulated products, was part of helping to get that $10 billion 
passed back in March to allow parallel paths of FDA clinical 
trials with pushing the button on supply chain and 
manufacturing, so it shaved about 6 to 12 months off the 
timelines to get these vaccines available and, thankfully, we 
are now starting to see broader distribution.
    So we have made great progress prioritizing vaccines. We 
have got a lot more work to do. But it is very concerning to me 
with this $2 trillion package, only about 1 percent of this 
package goes toward COVID-19 vaccines, and only about 5 percent 
is truly focused on the public health needs during the 
pandemic, and that is where--you know, if we are going to stop 
the pandemic, it is going to be through the vaccines. We should 
be doubling down on those efforts. Any additional relief 
package must be targeted, focused on ending the pandemic, which 
we will do with vaccines, not on extraneous policies that have 
nothing to do with the pandemic.
    Dr. Holtz-Eakin, don't you think we should be prioritizing 
aid for vaccines and actually public health needs over these 
extraneous policies that have nothing to do with the pandemic?
    Mr. Holtz-Eakin. The public health mission is the top 
economic policy. There is no question that should be a 
priority. And the second priority should be relief, targeted 
relief, to those who have suffered great financial distress 
[inaudible].
    Senator Daines. One question for Mr. Cracchiolo. In your 
testimony, you state that small businesses create about 80 
percent of the jobs in this country, and that is why I was 
grateful when we did the tax reform back in 2017, we focused on 
pass-throughs, these smaller businesses. They are the backbone 
of America. You stated if small businesses continue to close 
their doors, we will be harmed economically, and these have 
permanent long-term consequences. I think pretty much everyone 
on this Committee would agree with that statement.
    You discuss in your testimony how paying employees more in 
unemployment than they make in their jobs is harmful for small 
businesses. If everyone who wants a vaccine can get a vaccine 
by this summer or even this year, but we are providing an extra 
$400 a week of Federal unemployment insurance through 
September, which oftentimes add up to more workers not being 
able to get to work, how difficult do you think it will be to 
hire workers in that situation?
    Mr. Cracchiolo. Thank you for your question, Senator. I 
find that once employees have access to the vaccine, I do not 
believe it would be as difficult to hire or bring employees 
back into the workforce. Just to bring it back a little bit to 
what you mentioned, one of the things I agree with you most is 
tracking where the money is going. If we are able to track, as 
you said, where all this money is being spent and which 
companies are getting it, employees can benefit greatly because 
they will have access to that.
    Senator Daines. Thank you. I am out of time here. I 
appreciate it.
    Mr. Chairman, thank you.
    Chairman Brown. Thank you, Senator Daines.
    Senator Warren I believe is here, if she can turn her 
camera on. If not, I believe Senator Ossoff is here? Senator 
Ossoff from Georgia, your first hearing. Welcome.
    Senator Ossoff. Thank you, Mr. Chairman. Thank you. I 
appreciate it. Thank you to our witnesses for your testimony 
today.
    I have to confess to being surprised to hearing some of the 
protests about this direct relief for the people. I think there 
is a reason that 80 percent of the American public supports 
this COVID relief legislation. And to address some statements 
made by a colleague earlier, working families in this country 
are not playing the stock market with this money. Working 
families in Georgia and across the country have had to bear 
extraordinary child care costs, have faced significant loss of 
employment, medical bills, already were in a precarious 
financial situation to begin with in many cases. And this is a 
bipartisan relief effort in that it has the overwhelming 
support of a vast majority of the American people, and I hope 
that colleagues on both sides of the aisle can come together, 
and instead of becoming bogged down in factional disputes, 
swiftly and in a united way move this legislation, this COVID 
relief legislation through the Senate.
    I want to address a question to you, Mayor Brown, and ask 
you, and then I would like as well for Mr. Tsushima to address 
this as well: What are the forms of exploitation and abuse that 
those constituents you serve in your case, Mayor, and Mr. 
Tsushima, the legal aid clients that you serve are facing 
during this crisis?
    Mr. Brown. Senator, thank you so much for the question. I 
think I will start in the housing area. I spoke earlier about 
the city of Youngstown and facing a recovery of the economy. We 
have what we would consider predatory lenders from foreign 
investors that would invest in places like Youngstown, Ohio, 
where they are taking property sight unseen, but they are 
raising those dollars on the backs of the poor people that are 
paying two to three times as much in rent monthly than an 
average individual should have to do that.
    We are finding also that they are entering into land 
contracts, and the contracts are not even binding or there are 
stipulations that if you miss a few payments, we have had to 
have several of our local advocate groups actually take them to 
court to fight for that.
    So the predatory lending about the rent rate and then we 
have the issue of where they are giving them a land contract, 
and the one thing many of the people I represent here in the 
city of Youngstown want, they want to be homeowners. And when 
that contract is dangled in front of them and it is actually a 
false pretense, it causes some predatory lending practices here 
in the community I represent.
    Senator Ossoff. Thank you, Mayor.
    Mr. Tsushima.
    Mr. Tsushima. Senator Ossoff, thank you for your question. 
I would fully agree with Mayor Brown's response, especially in 
the housing area. We see quite a bit of predatory housing in 
Columbus, and this has been a practice even before the 
pandemic. It is just something that has become a much more 
intense practice. And a lot of that is just due to tenants and 
homeowners are scrambling to find funds where they can.
    For homeowners, a lot of homeowners who cannot pay their 
mortgage, cannot pay their taxes, they are looking for quick 
sources of income to pay things off. And sometimes they just do 
not know what the consequences of not paying their mortgage or 
taxes are. So what ends up happening is they get approached by 
somebody who recognizes that they are desperate and they will 
try to maybe buy the property for real cheap, you know, by 
making these sort of threats that give the homeowner an 
expectation that if they do not get the mortgage or the taxes 
paid immediately, then there is going to be criminal 
consequences or some other types of civil legal consequences 
that is going to take advantage of their desperation.
    Senator Ossoff. Thank you, Mr. Tsushima. And, Mr. Chairman, 
I yield back.
    Chairman Brown. The Senator from Tennessee for your first 
hearing on the Banking and Housing Committee, welcome. You are 
on mute.
    Senator Hagerty. Thank you, Mr. Chairman. Thank you, 
Ranking Member Toomey. I appreciate your holding this hearing 
today to make certain that the funds that we allocate to put 
this pandemic behind us are targeted to those who most need it.
    I also want to applaud my colleague from Georgia for 
calling on a bipartisan approach to do this. The Congress has 
proven its ability to approach this pandemic on a bipartisan 
basis on a number of occasions before, and I think we have done 
a very good job. I would like to share one example, if I might.
    In December of 2020, the Senate passed an additional $900 
billion in COVID relief on a vote of 92-6. One of the things 
that this package did was to set up the Emergency Capital 
Investment Program, and under this program Treasury will 
provide up to $9 billion in leverageable Tier 1 capital 
directly to community development financial institutions and to 
minority depository institutions so that they can provide 
loans, grants, and forbearance for small businesses, for 
minority-owned businesses, and for consumers. This program was 
specifically targeted to those that may be disproportionately 
affected by the pandemic, especially those low-income and 
underserved communities.
    However, as of this hearing, Treasury has not even had a 
chance to put this capital to work. This could make a 
significant difference. I raise this example because I believe 
we have got to continue to work to ensure that the trillions of 
dollars that Congress has approved on a bipartisan basis are 
being spent appropriately, expeditiously, and with the intended 
effect to help the American people. And we must ensure that any 
additional taxpayer funds are not duplicative of existing 
unused funds and that they are targeted to programs that are 
necessary to end the pandemic and to get our economy going 
again.
    With that, I would like to direct my first question to Dr. 
Holtz-Eakin. Dr. Holtz-Eakin, thank you for your time for being 
here. What I would like to do is talk with you about the 
longer-term risks to our economy, including our financial 
stability, that come with untargeted, oversized stimulus of 
this nature. I would appreciate your comments on that.
    Mr. Holtz-Eakin. It is a concern to me. You know, the 
[inaudible] testimony suggests that even very small 
multipliers, one-half, the economy reaches potential in the 
fourth quarter of this year, and after that it is above 
potential. And I am not deeply concerned about goods price 
inflation at the moment. We have had very low inflation for a 
decade. Even this would not turn that around overnight. But I 
am worried about asset price inflation, that we have seen the 
saving rate jump dramatically in the aftermath of packages of 
this size, the CARES Act in particular. Where those funds go in 
financial markets I think becomes a concern if we repeat the 
exercise that close to full employment. So I think the biggest 
risk of doing too much is, in fact, a risk to financial 
stability.
    Senator Hagerty. Thank you.
    I would like to direct my next question to Mr. Costa. 
Again, Mr. Costa, my condolences to your members who have 
suffered and lost their lives in this. I appreciate their 
frontline service. I wanted to ask you specifically about a 
letter that you drafted, February 1st, that came from your 
organization and others to Leaders Schumer and McConnell, to 
Speaker Pelosi and to Leader McCarthy. You noted that public 
transit agencies face a projected funding shortfall of $39.3 
billion through 2023. How much of that shortfall in dollar 
terms is attributable to the pandemic versus pre existing 
shortfalls?
    Mr. Costa. Good question, Senator. Most of it is the 
pandemic. Ridership was down. If it was not for the bailout and 
putting bus service back on to keep the social distancing, the 
original ideas that the authorities were doing, they were 
having massive layoffs. They were going to cut service. They 
were going to cut many workers' jobs--thousands--and the first 
bailout had them, first of all, stop the layoffs and, second, 
keep the buses--keep the riders safe and our drivers safe 
because the service was cut.
    So to answer your question, the pandemic, yes, was the 
biggest problem we had with revenue.
    Senator Hagerty. Could you explain then how the $39 billion 
that was already appropriated, actually $14 billion of that 
just in December, how has that impacted the shortfall?
    Mr. Costa. Well, that money was spent around. It was to 
keep the jobs there, to keep the service running, and also PPE, 
the equipment sanitized, new equipment parts brought in, 
filterized system, shields were brought in, millions and 
millions of masks were brought in, gloves, sanitizer. All that 
was money that was needed to keep us safe.
    Senator Hagerty. My time is up. Thank you.
    Chairman Brown. Senator Warren.
    Senator Warren. Thank you very much, Mr. Chairman. It feels 
so good to be able to call you that.
    I wanted to talk today about essential workers. Essential 
workers are just that: essential. They are the people who are 
on the front lines. They are still showing up for work even as 
the death toll in the United States approaches half a million 
people. These are the people who are keeping our economy, our 
health care system, our education system going. Without them, 
it would all grind to a halt.
    But this morning, millions of those essential workers woke 
up worried about contracting COVID-19 on the job. For nearly a 
year, the Federal Government has treated these workers as 
disposable. These essential workers are disproportionately 
Black and brown. More than 5 million essential workers do not 
have legal documentation, and many are hardly making enough 
money to get by.
    The failure, in fact, the outright refusal of the past 
Administration to protect essential workers during this 
pandemic has been truly shameful, and that is going to change.
    So, Mr. Costa, you represent transit workers--school bus 
drivers, subway workers, rail operators. The Biden 
administration has now committed to issuing enforceable health 
and safety standards for all workplaces.
    Can you just say a word about why that is so important for 
the workers that you represent?
    Mr. Costa. Thank you, Senator. Thank you very much. Like I 
said in my statement, we pushed and pushed to get Federal 
guidelines, and in the last Administration did not get 
anything. As a matter of fact, it was watered down.
    The Biden administration came in quickly; they reacted. The 
mask mandate for our drivers was huge. We appreciate that. The 
question about funding, we now are going to need the funding on 
how to bring that in without using our members as the mask 
police, as I spoke about the assaults that happen, and bad 
enough that we have members that are being killed over a $2 
fare, you know, in the past--and I am sure you read about this, 
and I know you know about this. But now I do not need many of 
our members being beat up or killed over the debate or politics 
that they have on the bus on the face mask.
    So the Administration's reaction is greatly appreciated. We 
appreciate that. But now our focus is how it is going to be 
applied, how we are going to enforce it, and who is going to do 
the enforcing. So, once again, the money will be needed, I 
believe, for those agencies to be helpful to institute this to 
save lives, not only for my members but the riding public. You 
know, if a driver is infected, there are 100 people on a bus or 
50 people on a bus, you know, they can be infected also.
    Senator Warren. Right. Well, that is very important, and 
thank you. You know, health and safety standards are powerfully 
important. They are just one piece of the puzzle, though. I 
proposed an essential worker bill of rights outlining a full 
suite of rights and protections and benefits that I believe all 
essential workers deserve, and that includes things like hazard 
pay, paid leave, health care protection. Representative Ro 
Khanna and I are expanding it now to include priority access to 
vaccines.
    But we also know that unions improve workplace health and 
safety and that union workers are more likely to have paid sick 
leave and employer-provided health insurance. Right now, only 
about one in every eight essential workers is currently covered 
by a union contract. So the essential workers bill of rights 
also includes protecting collective bargaining agreements and 
the right of workers to join unions.
    Now, there is another piece to this as well. We need to 
ensure that America's workers, including those who have battled 
this deadly virus every day in their workplaces, are not 
earning poverty wages.
    Mr. Costa, there are some who say that now is not the right 
time to increase the minimum wage. I would like to hear from 
you. Would raising the minimum wage help promote an equitable 
recovery from this crisis that workers are facing?
    Mr. Costa. Once again, Senator, thank you, and thank you 
for supporting everything you just said as far as heroes' pay 
and--yes, it would. I mean, we have been fighting for a minimum 
wage. I think every time we spread money around, the economy 
gets better, right? So this is America, right? Why aren't we 
taking care of our working families? To me, yes, a $15 minimum 
wage would help the economy, would help the livelihoods of many 
families, our minorities. We support it 100 percent, and we 
supported it from the beginning. As a matter of fact, we would 
support it even if you want to give more.
    Senator Warren. Thank you. And thank you, Mr. Chairman. You 
know, it is time to deliver for workers, and that means doing 
everything we can, including using budget reconciliation to 
raise the minimum wage to $15 an hour. I appreciate your being 
here, Mr. Costa, and thanks for having this hearing, Mr. 
Chairman.
    Chairman Brown. Thank you, Senator Warren.
    I see the names of Senators Crapo and Tillis and Rounds on 
the screen. I do not know if any one of them is here or any 
other Republican member, so I will go to Senator Van Hollen of 
Maryland.
    Senator Van Hollen. Thank you, Mr. Chairman and Ranking 
Member Toomey, and let me just start by seconding and strongly 
endorsing the comments just made by Senator Warren with respect 
to the urgency of increasing the minimum wage. It would be 
phased in to $15 an hour over a period of time, hitting that 
level in 2025. So I hope we will work to get that done.
    Mr. Costa, thank you for all that you and your workers are 
doing around the country, in Maryland, in Baltimore, the 
Washington area, and I look forward to working with you and the 
Chairman and others to make sure that we address all the 
important security and health concerns that you have raised. 
Your drivers have been right there on the front lines fighting 
the pandemic and, sadly, as you have testified, also having to 
fight, you know, people who want to use violence to challenge 
the social distancing rules.
    I want to sort of broaden that lens a little bit because we 
had earlier introduced a bill to deal with transit worker 
safety, even apart from the challenges during the pandemic, you 
know, the Transit Worker and Pedestrian Protection Act, and 
thank you for your input on that. I wonder if you could just 
talk about the need to move forward with that legislation.
    Mr. Costa. Senator, long term we support Senator Van 
Hollen's Transit Worker and Pedestrian Act to stop this endless 
assault on our operators. So we want to thank you for that.
    Unfortunately, it has been too long. It has not been 
passed. Not one more operator should be assaulted. You know, 
the industry needs to do something here with the design of a 
bus--we all know it. This is America. We are spending tons of 
money on equipment, and nobody has taken the fact that every 
day that I wake up, an operator is assaulted around the country 
and in Canada. This has to--this bill, I do not understand why 
it is taking so long. It is a bill that keeps our operators 
safe. It protects my operators. It protects the riding public. 
And if we do not fix the buses and make--and if the riders do 
not feel that it is safe, the industry is going to die; and if 
we do not have the industry, you are not going to build back 
the cities.
    We need this bill to keep the agencies and put them in a 
position that they can help protect us and help the riding 
public to keep passengers coming and to bring them back.
    Senator Van Hollen. Well, thank you, and please thank your 
members. As you say, nobody should have to put their life at 
risk to do their job in transit, helping other people get to 
and from work, and that was true--that is true, of course, 
during the pandemic, but it was true before, and that is why we 
look forward to working with you to pass this legislation.
    To Mayor Brown and Mr. Tsushima, I held a forum in Maryland 
the other day, a Zoom forum on the issue of affordable housing, 
especially focused on the housing emergency we are in right 
now, and, clearly, the eviction moratoriums have helped protect 
people. But there was an issue that was raised that appears to 
be a loophole, which is that, you know, people obviously have 
terms to their leases. Some people are month-to-month. And 
while the eviction moratorium prohibits somebody from being 
evicted because their nonpayment is related to hardships or 
loss of jobs and income because of the coronavirus, that 
protection is not there for people whose lease comes to an end, 
even though that may be the reason that it is not being 
extended as it normally would be as a matter of course. Can you 
speak to that a little bit and whether you have any ideas of 
how we can address that problem and whether it is something 
that you have encountered?
    Mr. Brown. Senator, I will just go and give you a sense of 
what is happening here in the city of Youngstown. We see the 
eviction issue--it goes hand in hand with the pandemic. I think 
I heard someone mention earlier that they could not see the 
connection. The connection for me is that individuals who are 
being evicted, now they have got to live with family or a 
friend and they are infected. Now they are taking that 
infection to another home so it becomes a big spreader.
    The other issue is that we are not going to be in this 
pandemic all of our time. There is going to come a time when we 
are going to get on the other side of this pandemic. We need to 
make sure that we are prepared, that individuals need to have 
housing counseling. Renters need to understand their rights. 
But, also, there has got to be a better understanding of how do 
we figure out, now that we have come through this pandemic, 
because many of these workers do not--they are unemployed. We 
have got to figure out how to retrain the workforce. We have 
got to find and make sure that we have a good workforce 
development program for the workforce that is going to be 
there. And we have to make sure that this is a long-term and 
sustained plan. So the eviction is just one issue that is 
harming many, many of those in our community, and from the 
landlord side of the world, they need to be paid as well. But 
we have got to get through it together. There has got to be a 
bridge of the gap, and I think this is why I am so much of an 
advocate to make sure that we have assistance for those that 
rent to make sure that they are not evicted.
    Senator Van Hollen. Well, I appreciate that, and I am a 
strong proponent of the $25 billion rental assistance provision 
that was pushed very hard by Senator Brown and myself and 
others in December, and I support the increase in that proposed 
by President Biden. Just in ending here, on the issue of long-
term unemployment, I am really glad you raised that. I am 
worried about it. We have 4 million long-term unemployed right 
now. I know that--and I will follow up later. I know that Mr. 
Holtz-Eakin has also been very concerned about that. And so I 
see my time is up, but I look forward to circling back with all 
of you for your thoughts. Senator Wyden and I and Senator 
Baldwin have put forward some proposals on that. We look 
forward to working with you. It is going to be a big issue. As 
we defeat the virus, as the economy comes back, we are at risk 
of leaving millions behind if we do not do something more. So I 
will follow up. I see my time is up.
    Chairman Brown. Thank you, Senator Van Hollen. As we close 
the hearing, thank you to the witnesses. Senator Toomey has a 
request, I believe.
    Senator Toomey. Thank you, Mr. Chairman. Yes, I would just 
like to make a unanimous request to insert into the record 17 
letters that I received related to today's hearing. They come 
from Pennsylvania business owners and advocacy groups that are 
concerned about job losses resulting from a minimum wage 
increase, parents and community groups supporting the reopening 
of schools, and some think tank scholars who are worried about 
excessive Government spending.
    Chairman Brown. I thank the Ranking Member.
    For those Senators on the Committee--I see Senator Hagerty 
is still on, and I assume a number of others whose pictures are 
not on the screen--who wish to submit questions, those 
questions are due 1 week from today. Please get questions you 
have for any or all of the five witnesses to the Committee 
staff by next Thursday. And then witnesses, we ask witnesses--
you have 45 days to respond to any of those questions. And 
thank you again. I thank the witnesses, thank Senator Toomey. 
Thanks for sharing your stories and the experience of the 
workers you serve. You hear a lot of statistics about this 
pandemic. We too often become numb to the numbers. I thought 
the stories you tell about drivers and about people who are 
about to be evicted or small businesses really matter. Anyone 
who listened to real people realized that the 2001 corporate 
tax cuts were not a success story; neither were the 2017 
corporate tax cuts. Ohioans know that. People around the 
country know that. We have tried that ``corporations first'' 
approach over and over. We know it does not work for people in 
Youngstown. It does not work for people driving or riding 
buses. It does not work for people who get their income from a 
paycheck, not a stock portfolio. We are done with that. And as 
some of the talk we have heard today about raising the minimum 
wage, I want to be clear to workers listening that when 
politicians are saying they simply do not want you to get a 
raise, they do not want you to have a wage you could live on 
and raise a family. I want to see more money in workers' 
pockets. I want to give more aid to small businesses that we 
heard today are struggling. We are done aiming low. I look 
forward to working with my colleagues to invest in the rest of 
the country so we can actually have a recovery that lifts all 
boats.
    So thank you all for joining us. The hearing is adjourned.
    [Whereupon, at 12:30 p.m., the hearing was adjourned.]
    [Prepared statements, responses to written questions, and 
additional material supplied for the record follow:]
              PREPARED STATEMENT OF CHAIRMAN SHERROD BROWN
    It should not be a surprise that our first hearing is about the 
coronavirus--it has affected every American's health, home, family, 
workplace, and the entire economy for nearly the last year.
    On this and on all of the issues to come before this Committee, we 
are going to get to work for all the Americans who have not had much of 
a voice in Washington, or in our economy.
    Ohioans and working families all over the country know what that's 
like.
    They have too much experience watching the largest multinational 
corporations thrive, while our communities get left behind.
    Long before the great recession, our trade and tax policy abandoned 
the industrial heartland and working class towns and neighborhoods all 
over the country, too often with bipartisan support.
    Communities from the Mahoning Valley to the Mon Valley, from 
Newark, Ohio, to Newark, New Jersey, all watched factory after factory 
close, with no plan to rebuild our local economies. Entire 
neighborhoods and entire towns hollowed out.
    People felt like their hard work no longer paid off. And for Black 
and brown workers, it had never truly paid off like it should. They 
were the first to be preyed on by shady mortgage lenders, the first to 
lose their jobs, and the first to get foreclosed on.
    Now they feel like they're watching history repeat itself.
    My colleagues on this Committee have heard me say many times that 
this pandemic has been the ``Great Revealer.'' It's laid bare what so 
many Americans already knew: that millions of workers have little 
economic security, and they can't get a foothold in this economy, no 
matter how hard they work.
    So many families are one emergency away from draining what little 
savings they have, or turning to a payday lender, or getting evicted.
    If the bus quits running after 10 and she can't make it to her 
night shift, she loses her job. If the restaurant where he works cuts 
back his hours, he has to choose between paying the rent or paying the 
electric bill.
    Last year, I was talking to a grocery worker in Ohio who told me, 
``they call me `essential,' but I feel expendable. They don't pay me 
much, they don't protect me at work.''
    And it is not a coincidence that many of the workers corporations 
treat as expendable are Black and brown workers, and so often they are 
women.
    This pandemic hasn't just exposed racial disparities and income 
inequality and gender disparities--it's made them worse.
    Black and brown Americans are more likely to work in frontline jobs 
that can't be done remotely, where they're more likely to be exposed to 
the virus. They're less likely to have paid leave, making them more 
likely to lose their job if they get sick or their child gets sick.
    They have less savings to fall back on, because of generations of 
wealth inequality. Black small businesses have closed at twice the rate 
of white small businesses.
    The system that has been making it harder for their work to pay 
off, and putting their lives at risk for generations--long before this 
virus appeared.
    And as for the toll this pandemic has taken on women, ask any 
mother how she's doing right now.
    Millions of women have been doing three jobs for the last 11 
months--they're full-time caregivers and teachers and doing the job 
they had before this pandemic. And notice, only one of those three jobs 
actually comes with a paycheck.
    For 2.3 million women, they simply can't do all three--they've been 
forced out of the workforce altogether. And that means 2.3 million 
families are scraping by with less, trying to figure out how they'll 
pay the mortgage or pay for health insurance or pay for groceries this 
month.
    It's always the same story--when the biggest banks and the largest 
corporations need help, their allies in Washington spring into action. 
But when the rest of the country needs investment and support, they 
pretend we can't afford it.
    Today, under new leadership on this Committee, we have a clear 
message: Those days are over.
    We will not settle for less.
    Black and brown workers don't have to settle for a system that 
treats their lives as expendable. Mothers don't have to settle for 
doing three jobs, with no help. Small business owners don't have to 
settle for scraps, while they watch corporate profits soar.
    Ohio and the rest of the country do not have to settle for a Wall 
Street-first recovery.
    We are the world's richest country with the world's largest 
economy. We have the resources to rise to meet this challenge, for 
everyone.
    That's what President Biden is doing, with his rescue plan. And 
it's what we will do on this Committee, starting today.
    Our witnesses today will make clear the importance of a recovery 
that supports all Americans.
    We will hear from the president of the Nation's largest transit 
workers union, who is working to keep his members safe while they 
ensure Americans can get to work or a doctor's appointment or the 
grocery store.
    We will hear from a legal aid attorney who is on the front line in 
Columbus, working with renters to keep people in their homes during a 
pandemic.
    We will hear from a small business owner who is struggling to keep 
his doors open and his workers on the job.
    And we will hear from the mayor of an industrial town that has 
suffered disinvestment for decades, has been stereotyped by national 
pundits, and is now facing the same challenges as cities and towns and 
neighborhoods in all of our States.
    These are the voices that have been ignored, shouted down, or even 
ridiculed by corporate elites, their newspaper of record, and too many 
in Washington. That ends now.
    We will get help to people--all people--to stay in their homes, and 
pay their bills. We will keep the doors open at minority-owned 
businesses that entrepreneurs have worked their whole lives to build. 
We will keep our buses and our trains running, and keep those workers 
on the job.
    This is about recovery, and it's about rebuilding. It's about 
empowering all Americans--no matter who you are, where you live, or 
what kind of work you do--and investing in all communities.
    We will show the American people--all people--that their Government 
is on their side. It's time to get to work.
                                 ______
                                 
                  PREPARED STATEMENT OF JOHN A. COSTA
           International President, Amalgamated Transit Union
                           February 18, 2021
Introduction
    Mr. Chairman, the Amalgamated Transit Union (ATU) appreciates the 
opportunity to provide our views on how workers have sacrificed and 
suffered through the COVID-19 pandemic and the inequities that we have 
witnessed in public transit. The coronavirus has shown the world the 
true meaning of ``essential'' workers. We are the ones who people rely 
upon to survive when everything around us shuts down. Since the 
pandemic began, transit workers have put their own lives on the line, 
bravely reporting to work every day, driving transit riders in our 
communities to the doctor, the grocery store, and the pharmacy. We make 
sure that nurses and other hospital workers get to their jobs to care 
of our family members and friends who are suffering.
Grateful
    On behalf of the entire public transit industry, both labor and 
management, and of course the people who rely on the services our 
members provide every day, I want to thank this Committee for leading 
the way in providing the resources necessary over the past year for 
transit to survive during the coronavirus pandemic. Without the $25 
billion in the CARES Act and the additional $14 billion in the recently 
passed Coronavirus Response and Relief Supplemental Appropriations Act 
of 2021 (CRRSAA), the Nation would have come to a complete stop. Thanks 
to you, we've been able to keep the buses and trains running, making 
sure that grocery store workers keep the shelves stocked, child care 
workers keep our kids safe, and nurses keep us alive. You've also saved 
the jobs of hundreds of thousands of our members, the transit workers 
who move America, and we are all sincerely grateful. More than any time 
in the nearly 60-year history of the Federal Transit Program, Congress' 
unwavering and bipartisan support for public transit has not only kept 
critical transportation services running--you have saved lives.
Sacrifice
    Of course, these days, the downside to staying on the job as a 
frontline worker--especially a transit bus operator--is that you are 
continuously exposed to the coronavirus, putting your life on the line 
every day. It's no surprise that nationwide, thousands of transit 
workers have tested positive for COVID-19. The buses we drive have 
major issues with air flow, air sterilization, and filters. When a bus 
is moving forward, it creates reversed airflow in the cabin, bringing 
unhealthy air into the driver's workstation. The buses have dangerous 
airflow with recycled and very poorly filtered air. Some jurisdictions 
have tried temporary measures, such as hanging shower curtains near the 
driver and separating us from the passengers, but transit worker deaths 
are still piling up.
    Shift after shift, our brave members have reported for work, 
driving tin cans with bad air circulation down the road, and hundreds 
of transit workers have paid the ultimate price. As of today, 132 ATU 
members have died from the virus, and our sister union, the Transport 
Workers Union (TWU) has lost even more transit workers. Nearly 300 
families will never be the same because of this cruel and horrible 
disease.
Failure
    It didn't have to be this way. With the proper precautions, transit 
service can be delivered safely. Unfortunately, the previous 
Administration let us down from the beginning, and it cost us many, 
many lives. Incredibly, right from the start, the Federal Transit 
Administration (FTA) under Trump told us that masks were not 
recommended. And even when it became crystal clear that masks were our 
best and most cost-effective weapon against the virus on transit, the 
Administration did not act. Nine years ago, our union supported changes 
to the law giving FTA the power to enforce safety matters. 
Unfortunately, in 2020, the agency simply refused to use that 
authority. We pleaded with them to step up and get personal protective 
equipment (PPE) to the transit systems. They ignored us. So in many 
cases, it was actually our local unions that went out and helped the 
agencies secure PPE. Think about that. The workers and their unions 
were forced to go out on their own and search for and sometimes pay for 
the life-saving equipment because our Federal Government turned a blind 
eye. We also sent demands regarding social distancing, mask mandates, 
contact tracing, and several other protective measures for transit 
workers. But the previous Administration watered down the Centers for 
Disease Control (CDC) guidance, seriously scaling back or completely 
removing specific recommendations for transit systems:

  <bullet>  No specific guidance on necessary PPE;

  <bullet>  Lack of recommendations for testing transit workers and 
        performing contact tracing;

  <bullet>  No guidance for strategic continuation of service to reduce 
        overcrowding;

  <bullet>  Failure to offer specific guidance for effective sanitation 
        and filtration of HVAC systems on transit vehicles;

  <bullet>  Scaled back recommendations for waiting to allow for air 
        exchange before cleaning possibly contaminated work areas;

  <bullet>  Removed examples of physical barriers and partitions as 
        effective measures to enforce social distancing and correct air 
        flow recirculation issues; and

  <bullet>  Watered down protocols for responding to cases of 
        potentially infected workers.

    As a result, each day, more and more of our members died. While we 
will never know exactly how many passengers contracted the virus on the 
bus or the train due to the lack of Federal safety standards, or the 
number of family members they later infected, it is safe to say that 
many deaths could have been prevented with proper leadership.
    Now, even after inauguration day, we are still paying the price. We 
found out on Day Two of the Biden Administration that the new President 
was reportedly left with no plan to administer the vaccine. It would 
not have mattered anyway, as we already heard that the reserves that 
the previous Administration were supposedly stockpiling were actually 
exhausted. Now, even in States that are following Federal vaccine 
recommendations, giving vaccine priority, in the second tier, to 
transit workers and other frontline workers, the fact is that supply 
does not even come close to meeting demand. In my home State, our 
employer, New Jersey Transit, did the right thing and purchased 
refrigerators to store the vaccines so our members can get the shot 
right on site. But those refrigerators have been empty for more than a 
month. Since there was no plan and no reserves, we wait for the shot, 
putting our lives on the line every day.
The Mask Police
    In addition to driving a bus, ATU members also now serve as the 
``mask police.'' Far too often during these politically charged times, 
we have been brutally attacked for simply enforcing the rules and 
trying to stop the spread of the virus.
    A baseball bat beating in California, a two-by-four attack on a bus 
in Texas, and a bone-breaking sucker punch in New York are just a few 
violent incidents that underscore another danger for transit workers in 
a coronavirus world--and they all happened in one month. Since the 
pandemic began, there have been hundreds of COVID-related violent 
encounters between bus drivers and angry passengers who refuse to wear 
masks or follow social distancing protocols.
    At the beginning of the pandemic, transit systems were boarding 
from the back and waving fares. But regular fare collection and front 
door boarding resumed again in the summer, bringing passengers and 
drivers within a few feet of one another, exposing us to the virus and 
angry people.
    When someone boards one of our buses without a mask, we are faced 
with a tough choice: say nothing and risk that an infected rider will 
spread the virus, or tell the passenger to put on a mask and risk a 
violent reaction. When you confront someone, it can escalate quickly. 
They could spit on you, throw something at you, or hurt another 
passenger. But what if that person is sick and contaminates everyone on 
this bus? And you could have prevented that?
    Last May, a St. Louis man boarded a bus without a mask. After the 
female driver informed him that he could only ride the bus with a face 
covering on, the man fired a 9mm pistol at the driver. She was saved 
only by the polycarbonate shields that were installed as part of the 
COVID response. In Austin, TX, a man threatened a bus driver with 
broken scissors after being told to wear a mask. In Springfield, MA, a 
PVTA bus driver was assaulted after asking a passenger to wear a face 
covering. The suspect punched the woman driver in the back of the head 
and then assaulted another person who tried to help. Knoxville, TN 
police arrested a man who threatened a bus driver with a box cutter 
after she asked him to put on a face mask before boarding. In Staten 
Island, NY, a man was arrested on assault charges for throwing hot 
coffee onto an MTA bus driver's face when he was asked to put on a face 
covering.
    In Boston, a teenager recently attacked an MBTA bus driver after he 
was asked to put a mask on or get off the bus. He then began coughing 
on the driver, claiming he had COVID and attacked the driver with a 
block that's put under the bus wheels when it is parked. In Florida, a 
homeless woman recently boarded a Miami bus and began coughing on 
passengers. The driver told her she needed to wear a mask. The woman 
then spat on the driver. Coughing on someone is not a laughing matter. 
When the pandemic first began back in March, ATU Member Jason Hargrove, 
from Detroit, posted a Facebook Live video complaining about one of his 
passengers who was openly coughing several times on his bus without 
covering her mouth. Eleven days later, Jason died of COVID-19. Jason 
loved his job and was proud to do it. He was always concerned about his 
passengers. He suffered too, as his temperature soared, his fingertips 
turned blue, and he couldn't breathe.
    Once a passenger gets on the bus with a mask, it's just the 
beginning. While driving down the road, our members are constantly 
checking the mirror, making sure that riders are keeping their masks 
on. They often pull the face coverings off, and that's when the real 
tension begins. We are bus drivers, not police officers. We do not need 
political debates on board our vehicles, but that's the way things are 
right now. When people don't listen, we need to call in the issue to 
the company so they can send help.
    We are thankful for President Biden's action to require masks on 
public transportation. TSA's Security Directive (SD) 1582/84-21-01 
regarding face mask requirements, which supports enforcement of the CDC 
order, is long overdue. The SD requires transit systems to establish 
procedures to manage situations with persons who refuse to comply with 
the requirement to wear a mask. At a minimum, these procedures must 
ensure that if an individual refuses to comply, the agency must deny 
boarding, make best efforts to disembark the individual as soon as 
practicable or make best efforts to remove the individual. Of course, 
unlike the airlines, the issue is that we do not have armed TSA agents 
screening passengers before they get on the bus or the train. 
Therefore, the burden of enforcing this rule still falls upon our 
members, at least initially. We clearly need increased local law 
enforcement on our buses to carry this out.
Driving a Bus in a COVID World
    We are frontline workers. That does not change, virus or no virus. 
Our job is to make sure that people can get where they need to go--the 
doctor, the pharmacy, the grocery store--safely. All of this has become 
quite challenging during the pandemic.
    Social distancing on a bus is extremely hard to do. Passengers in 
many locations are allowed in the front row, which is too close for 
comfort for many of us, and we are once again collecting fares. In some 
cities, passengers are provided with masks if they do not have one, but 
our members often drive in the inner cities where homeless people are 
currently boarding the buses for free, and boxes of masks on the 
vehicle usually disappear quickly.
    We come in early to complete the COVID preshift tasks, grabbing the 
spray bottle and wiping down the vehicles, especially the driver 
shields that have been installed in many locations since the pandemic 
started. Most shields are better than nothing, but still leave a gap 
exposing us to attacks.
    As always, we must still touch wheelchairs to help disabled riders 
get on board, secure their wheelchairs, and help them exit. Anywhere we 
touch, the surface gets wiped down.
Transit Still in High Demand
    Continued transit service is vital to lower-income essential 
workers who are keeping our hospitals, supermarkets, and pharmacies 
going. A recent study by Ohio State University \1\ found that the 
COVID-19 pandemic had surprising effects on demand for transit in 
American cities. While demand for public transit dropped about 73 
percent across the country after the pandemic hit, the reduction didn't 
impact all cities equally. Large cities saw demand fall further than 
cities in the Midwest and the South. Why? It has to do with the nature 
of jobs in different cities and who was actually using public 
transportation before the pandemic. In cities in the Midwest and the 
Deep South, most transit users have jobs where they still have to come 
in to work during the pandemic and don't have any other choice.
---------------------------------------------------------------------------
     \1\ The Impacts of COVID-19 Pandemic on Public Transit Demand in 
the United States. November 18, 2020, https://journals.plos.org/
plosone/article?id=10.1371/journal.pone.0242476.
---------------------------------------------------------------------------
    Essential workers are the core users of public transit in these 
cities. They include health care workers, people working service jobs, 
working in grocery stores, and people who clean and maintain buildings. 
The biggest factor was race. The larger the Black population in a city, 
the less decline in demand for transit.
    Occupation also plays a large role. People who cannot work at home 
and rely on transit continue to use it. Many of the people with 
physical jobs who continue to use transit are Hispanic.
Vaccine Inequities and the Impact of Transit
    The inequities don't end there. We know that America has seen large 
racial disparities in coronavirus cases, with Blacks, for example, 
accounting for a huge percentage of virus cases despite being only 
about 13 percent of the U.S. population. And when it comes to the 
vaccine, the numbers are also skewed. A racial gap has opened up in the 
Nation's COVID-19 vaccination drive, with Black Americans in many 
places lagging behind whites in receiving shots, and it's not just 
because many are suspicious of the Government. Access is a key factor, 
and transit plays a huge role.
    People in underserved communities often don't have vehicles and 
must rely on public transportation. Drive-up vaccination sites are of 
no use to these people. And we know that during the pandemic, many 
transit agencies have reduced their service or limited the number of 
passengers to provide for social distancing. The vaccine distribution 
has a huge transportation component.
    Our members at Local 1309 in San Diego are now giving free rides to 
passengers to and from COVID-19 vaccine sites. We are pleased to play a 
key role in this partnership between the Metropolitan Transit System 
and North County Transit District. In South Florida (Locals 1267 and 
1577), officials are calling for educational outreach in the Black 
community via avenues besides the typically used churches and 
supermarkets, which could include hair salons, laundromats, or public 
transit stations.
    It's also not just a matter race: age plays a role as well. In Los 
Angeles, where our members at Local 1277 maintain the buses, we've 
heard about seniors having to take three buses to get to vaccine 
appointments. Transportation limitations should not slow down the 
vaccine rollout. Thankfully, the county is working out an agreement 
with regional transit operators to provide direct access to the vaccine 
sites.
More Transit Investment Needed
    Even if the vaccine rollout improves drastically in the first half 
of this year and our economy comes back to life, transit will still be 
in need of emergency operating aid for the foreseeable future. 
Dedicated sales taxes from bars and restaurants have dried up, leaving 
transit agencies with no local source of operating assistance. Choice 
riders are understandably hesitant to get back on transit vehicles due 
to safety concerns. It will likely take years for ridership levels and 
fare box revenue to recover, and we will need significant levels of 
Federal operating aid to survive.
    As highlighted by the American Public Transportation Association 
(APTA), an independent economic analysis found that public transit 
agencies face a projected funding shortfall of nearly $40 billion 
through 2023. We therefore urge Congress to provide an additional $39.3 
billion in emergency funding to help public transit agencies provide 
safe, reliable service as they continue to grapple with the financial 
burden caused by the COVID-19 pandemic. We are grateful for the $30 
billion included in the budget reconciliation bill.
    All transit systems have been hit hard by this pandemic, and ATU 
calls on Congress to ensure that the next bill provides funding for all 
FTA grantees. The December bill, with its formula providing up to 75 
percent of 2018 operating costs between the CRRSAA and the CARES Act, 
did not result in distributing funding to every system.
    This additional funding is needed to maintain critical service. 
Moreover, robust transit service is essential to our long-term economic 
recovery, particularly for low-income workers and communities of color. 
As discussed above, Congress threw a lifeline to transit agencies and 
our communities with the recent passage of the CRRSAA. In the weeks 
leading up to that bill, we were facing massive layoffs and staggering 
service cuts--as much as 40 percent in some areas. TransitCenter and 
the Center for Neighborhood Technology released a revealing study \2\ 
which showed that in just ten regions, more than 3 million households 
and 1.4 million jobs would have lost access to frequent transit, with 
communities of color really feeling the impact. Second and third-shift 
workers would lose an affordable way to commute, and households without 
vehicles would have an even harder time meeting everyday needs.
---------------------------------------------------------------------------
     \2\ ``Stranded''. TransitCenter, September 30, 2020, https://
transitcenter.org/wp-content/uploads/2020/09/stranded.pdf.
---------------------------------------------------------------------------
    For example, in Boston, where ATU Local 589 runs the ``T,'' nearly 
11,000 households without access to a private vehicle would lose access 
to frequent transit, impacting their ability to meet essential needs. 
In Cincinnati, where ATU Local 627 runs SORTA, frequent full-day 
service would cease to exist, stranding nearly 17,000 people, nearly 
half of whom are Black. The report highlights Patrick Jones, who rides 
two buses to get from his home in Cincinnati to reach his job as a 
forklift operator at the Coca-Cola distribution center across the river 
in Covington, KY. His typical commute, which takes about 1\1/2\ hours, 
has already increased by 10-20 minutes, as service changes have 
lengthened transfer times between buses in downtown Cincinnati. 
Clintisha Flemming, the report notes, a property owner in metro Atlanta 
(ATU Local 732), saw what happened when bus routes were changed due to 
COVID. ``Ninety-five percent of my tenants use MARTA,'' she said. ``The 
agency cut a bus route that served my building and now my tenants are 
scrambling to figure out how to get to work and access their doctor. 
Loss of public transit can change the trajectory of a person's life. 
This is life and death for some of my tenants.''
Heroes
    While many people have the luxury of working from home to avoid the 
coronavirus, some of us are not that fortunate. Over the past year, our 
``essential'' workers have literally saved America--keeping the economy 
moving so that we can remain safe. Tragically, by putting themselves in 
harm's way, millions of these brave people have been infected with 
COVID-19, and hundreds of thousands have paid the ultimate price.
    Now, it's time to recognize the sacrifices that frontline workers 
have made during this deadly pandemic with a small token of 
appreciation. ATU strongly supports hazard pay for frontline workers 
(including transit workers).
    Our members are true heroes for millions of the Nation's transit-
dependent individuals--mostly people of color--who patiently wait for 
the bus during these cold winter months because they have no other way 
to get to work, the grocery store, the doctor, and the pharmacy.
    While transit workers are rightfully being called ``heroes'' during 
these horrific times, our members are finding that when they return to 
the bargaining table, they are being cast away as ``zeros.'' Congress 
should provide pandemic premium pay for frontline workers now!
Conclusion
    We cannot change what has happened in the past eleven months. Our 
hero members and the passengers that we've lost due to the failures of 
the Federal Government to keep us safe are not coming back. But moving 
forward, brighter days are ahead. President Biden's commonsense public 
transit mask mandate was a huge step in the right direction that will 
save lives. The vaccine should be more widely available soon, and 
hopefully transit workers will get priority access. With continued 
Congressional support for public transit, a stronger Federal role in 
the enforcement of common sense safety measures, and a seat at the 
table for workers to express their COVID concerns, we can work our way 
through these challenges, safely deliver the transit services that 
Americans sorely need, and play an important role in our economic 
recovery.
                                 ______
                                 
                PREPARED STATEMENT OF JAMAEL TITO BROWN
                        Mayor, Youngstown, Ohio
                           February 18, 2021
    Thank you Chairman Brown and Ranking Member Toomey for inviting me 
to testify before the Senate Committee on Banking, Housing and Urban 
Affairs. I am Jamael Tito Brown the Mayor of the City of Youngstown, 
Ohio. We are a small city in the Midwest of a population of nearly 
67,000.
    This year marks 44 years since the closure of steel mills in the 
City of Youngstown. As a legacy city, we have faced a history of 
corporate corruption and political corruption causing governmental 
mistrust amongst our community. My Administration has had to overcome 
many obstacles. Inadequate educational resources and a lack of livable 
wage jobs have always been historical problems for our community. A 
further hindrance in our efforts for recovery is the decline of our 
housing stock and transportation for those who need access to 
employment.
    The current global pandemic has hit our community harder than most. 
COVID-19 has been a great revealer of the health, social, economic and 
racial disparities of our community. Small to medium sized businesses 
are also feeling the impact of the pandemic, especially minority-owned 
businesses, many of whom did not have an established relationship with 
a banking institution prior to the pandemic.
    The needs of the City of Youngstown are no different from other 
communities across the Nation. When a city is barely rebounding from 50 
years of economic decline because of outside forces beyond our control, 
those rebounds have been further eviscerated by COVID-19. Whatever 
Federal assistance is provided must be a long-term coordinated strategy 
to get the resources we need to address the public health impact of 
COVID-19 and assure that housing, transportation, and small business 
efforts are included in a Federal rescue plan. If any component is 
ignored the entire community structure will likely fail.
    Ohio cities in particular have been hard hit by the economic 
downturn brought on by the pandemic. This is because cities in Ohio 
rely on a municipal income tax as our primary source of revenue. This 
tax source is much more susceptible to economic conditions as opposed 
to more stable sales or property tax revenue streams.
    Youngstown has seen this impact first-hand. We are the county seat 
and our county, Mahoning County, has one the highest unemployment rates 
in the State--ranking 75th out of Ohio's 88 counties. When unemployment 
is up, tax revenue is down and these economic challenges have ripple 
effects all across our regional economy--from housing, to public 
transit, and the economic activity that sustains our small businesses.
    In order to truly recover from the pandemic, relief has to help our 
neighbors and our community to not only survive but also thrive so our 
city does not flounder for another 50 years.
    A Federal rescue plan must include assistance to help build back 
better legacy cities like Youngstown, Ohio. It should include, as 
outlined by President Biden: assistance for the production and 
distribution of COVID-19 vaccines; rental assistance for families; 
transit assistance to keep buses running so essential workers can 
continue to get to work; and small business support so hardworking 
business owners can keep their workforce.
    The relief effort should be flexible and free of bureaucratic red 
tape so that the pace of recovery is not stymied by Federal mandates. 
Transparency of local government spending should be a guiding mandate 
to reinforce accountability and build trust with our communities.
    Small cities need assistance. Small cities need assistance quickly. 
Small cities need assistance desperately.
    The impacts of COVID-19 are still affecting many of my citizens. 
Families are still hurting. We need immediate relief during these 
difficult times. I urge you to think of this as part of a long-term 
sustainable recovery plan to build back and create thriving 
communities.
                                 ______
                                 
                 PREPARED STATEMENT OF JYOSHU TSUSHIMA
             Staff Attorney, Legal Aid Society of Columbus
                           February 18, 2021
    Thank you for inviting me to testify. My name is Jyoshu Tsushima, 
and I am a staff attorney at the Legal Aid Society of Columbus Ohio, a 
nonprofit that provides free legal assistance to low-income clients. 
Through our eviction prevention clinic, the Tenant Advocacy Project 
(TAP), my team and I represent tenants in eviction trials at Franklin 
County Municipal Court.
    While the pandemic has wreaked havoc on our community, it has hit 
low-income communities the hardest. We are constantly reminded to stay 
home and social distance, but such safety measures are not available to 
families who are evicted.
    Every morning, Monday through Friday, my team and I watch tenants 
and landlords check in for eviction court. About 90 to 100 trials are 
scheduled per day, all for 9 a.m., before one magistrate. Our court 
uses a ``cattle call'' system, where tenants, their families, 
landlords, and attorneys wait in an atrium for cases to be called one 
at a time. We try to help as many families as we can before cases get 
called. We quickly assess cases for legal defenses and scramble to seek 
solutions that will keep them housed. Other agencies are also at 
eviction court trying to connect tenants and landlords with rental 
assistance. Every morning is chaotic and so many tenants fall through 
the cracks, leaving court knowing they have to move their families 
elsewhere, in the dead of winter, in the middle of a pandemic.
    The vast majority of tenants are facing eviction for falling behind 
on rent. Even before the pandemic hit, over 54,000 low- and moderate-
income households in Central Ohio spent more than half of their income 
towards housing. \1\ Many were survived by living paycheck to paycheck. 
When these renters lost their jobs, or their hours were cut due to the 
pandemic, they were forced to rely on erratic spurts of stimulus 
checks, unemployment, and rental assistance, with little certainty 
about how much would come or when it would arrive. At one point 
Columbus was so short on rental assistance that our distributor, IMPACT 
Community Action, only dispersed funds to tenants that were being 
evicted while others were told to reapply when funds were replenished. 
When funds were depleted after that, IMPACT ceased new applications 
altogether. And even when assistance arrives, it is mostly used to pay 
off debts that were already owed, leaving nothing to for next month's 
rent. So many of our clients live this cycle month-to-month. They are 
not hanging by a thread; they are constantly waiting for one to be 
thrown down to save them.
---------------------------------------------------------------------------
     \1\ Affordable Housing Alliance Central Ohio, The Columbus and 
Franklin County Affordable Housing Challenge: Needs, Resources, and 
Funding Models, February 2017, https://static1.squarespace.com/static/
AHACO+Research+Report+FINAL+February+2017.pdf.
---------------------------------------------------------------------------
    Because of this uncertainty and frequent shortages in financial 
assistance, tenants are terrified of falling behind on rent and losing 
their homes, and current law does not ease those fears. Landlords can 
legally refuse rent once it is late and choose to evict instead. 
Landlords are not required to work out payment plans to give tenants a 
chance to catch up. We have had tenants who cannot even attend court 
because they are hospitalized by COVID-19, and when we ask some 
landlords' attorneys to reschedule a case until the tenant is well 
enough to return, they decline and reply that, although unfortunate, 
they will still evict these tenants because that is the right of the 
property owner. When a landlord owns your home, being infected with 
COVID-19 does not stop an eviction. Neither does job loss, family 
death, mental illness, crippling accidents, nor any other misfortune.
    Eviction moratoriums are effective in keeping people housed and 
preventing the spread of COVID-19. \2\ However, enforcement of 
moratoriums under the CARES Act and CDC has been excruciatingly 
difficult. Under the CARES Act moratorium it was nearly impossible for 
attorneys to determine if rental properties met the requirement of 
having a federally backed mortgage since such information was not 
publicly available. Unrepresented tenants did not even know what the 
moratorium requirements were. Ultimately, enforcement was left to the 
self-regulation of landlords.
---------------------------------------------------------------------------
     \2\ Leifhert et al., Expiring Eviction Moratoriums and COVID-19 
Incidence and Mortality, https://papers.ssrn.com/sol3/
papers.cfm?abstract-id=3739576.
---------------------------------------------------------------------------
    When the CDC announced its moratorium we were hopeful that it would 
be easier to enforce; however, too many tenants are slipping through 
the cracks due to several loopholes. Current CDC guidance allows 
landlords to challenge tenants' eligibility for the moratorium in 
court. Since there is no consequence to making such a challenge, many 
landlords and their attorneys advise tenants that they are not 
protected and will challenge the moratorium by filing an eviction, 
which is often enough to pressure tenants to move.
    In Columbus if a tenant seeks protection under the moratorium 
through our court, the tenant then has to attend a ``truthfulness'' 
hearing, where the landlord or their attorney quizzes the tenant on 
whether they are really poor enough to qualify. One of our clients lost 
his job due to the pandemic and was supporting himself and his two kids 
on $100 weekly unemployment checks. His landlord filed an eviction 
against him for failing to pay rent. At trial the landlords' attorney 
grilled him on why he couldn't spend any of his unemployment towards 
rent. Our client responded that it all went to food and utilities. The 
attorney argued to the court that since our client spent nothing on 
rent the CDC moratorium should not apply. The court declined this 
argument and stayed the eviction; however, the landlord filed a new 
eviction against our client, claiming he was a holdover tenant. Tenants 
are already scared and humiliated to be at court. To have to be cross-
examined in open court on how they are trying to keep their children 
alive on $100 per week demeans them even further, and they cannot even 
be guaranteed that the moratorium will keep them safe. Over 4,000 
evictions were filed in our court between September and December 2020. 
Less than 20 of these evictions were stayed under the moratorium.
    Evictions and COVID-19 are also hitting our Black communities the 
hardest. While 60 percent of our clients at eviction court are Black, 
Black residents make up only 24 percent of Columbus' population. CDC's 
data shows that if you are Black then you are twice as likely to die 
from COVID-19 than if you are white. \3\ In other words, a 
disproportionate number of Black tenants are being evicted, leading 
them to greater exposure of COVID-19 when they move into shelters or 
another family's home. None of my clients chose their race or choose to 
be born poor. None of them chose to suffer as they do. The rest of us, 
however, have a choice in either taking action or being bystanders to 
the consequences of this pandemic.
---------------------------------------------------------------------------
     \3\ Center for Disease Control and Prevention, COVID-19 
Hospitalization and Death by Race/Ethnicity, https://www.cdc.gov/
coronavirus/2019-ncov/covid-data/investigations-discovery/
hospitalization-death-by-race-ethnicity.html.
---------------------------------------------------------------------------
    We need more aggressive intervention. That means adequate rental 
assistance that tenants and landlords can rely on, and effective 
eviction moratoriums to keep families housed. An estimated 272,000 to 
552,000 of Ohio families are at risk of an eviction without such 
intervention, while 7 to 14 million households nationwide face the same 
peril. \4\ These numbers do not even account for the millions of 
homeowners facing similar threats through foreclosures. When a family 
is displaced, those parents, those children, suffer innumerable ways. 
And the community as a whole suffers as well. We must do more to ensure 
everyone has a home, not just because it is right, but because it is 
necessary.
---------------------------------------------------------------------------
     \4\ STOUT Data: Estimation of Households Experiencing Rental 
Shortfall and Potentially Facing Eviction (8/19/20-11/23/20), https://
app.powerbi.com/view?r.
---------------------------------------------------------------------------
                                 ______
                                 
               PREPARED STATEMENT OF DOUGLAS HOLTZ-EAKIN
                    President, American Action Forum
                           February 18, 2021
    Chairman Brown, Ranking Member Toomey, and Members of the 
Committee, thank you for the privilege of appearing today to share my 
views on the American Rescue Plan (``the plan'') and the sister 
legislation being prepared by Congress. I wish to make three main 
points:

  <bullet>  The architecture of the plan is largely divorced from the 
        roots of the recession and headwinds to the recovery, and--at 
        best--it will be costly, inefficient, and ineffective;

  <bullet>  The scale and composition of the plan is at odds with the 
        stated goals for economic stimulus toward full employment; and

  <bullet>  A large number of the elements of the plan can only be 
        understood as long-standing and permanent political objectives 
        that are inappropriately advertised as a response to COVID-19.
The Roots of the Recession
    In the 20th century, recessions were income-related events. In the 
prototypical recession, when inventories built up, production was 
throttled back, layoffs ensued, and household incomes fell. The 
resulting retrenchment in household spending exacerbated the original 
problem, and the downturn took hold. Eventually, the shelves became too 
bare, production ramped up, laid-off workers were recalled, and the 
dynamics took hold in reverse. Many of the familiar fiscal policies--
unemployment insurance, tax cuts, etc.--were designed to provide 
transfer income to lessen the depth of the recession and shorten its 
duration.
    In the 21st century, recessions have been triggered by financial 
instability and wealth destruction that spilled over to the Main Street 
economy. The dot-com bubble burst lead to a mild recession early in the 
century and the 2007-2008 financial crisis spawned the Great Recession. 
The same tools were deployed, but with little success. Despite fiscal 
policy legislation in 2001, 2002, 2003, and 2005, the years after the 
dot-com recession were labelled the ``jobless recovery.'' The painful 
aftermath of the Great Recession is familiar to all.
    The COVID-19 recession is unique. Income has risen through 2020, 
with employee compensation up by 2.0 percent overall, wages and 
salaries up 2.2 percent, and the massive transfers in the Coronavirus 
Aid, Relief, and Economic Security (CARES) Act ensured that disposable 
income never fell below the level in Q4 of 2020. The recession is not 
an aggregate income event. Similarly, housing values have risen over 
2020, equity markets are up strongly, and household wealth has been 
bolstered by the large amount of transfer income that has been saved. 
The recession is not a financial market and wealth event.
    The COVID-19 is a household spending event (``consumption'' in the 
jargon of economics). Between Q4 of 2019 and the trough in Q2 2020, 
real gross domestic product (GDP) fell precipitously by $1,951.5 
billion or 10.1 percent. As shown in the chart (below), 65.5 percent of 
that decline can be traced to reduced household spending on services. 
This follows directly from the threat of the virus: consumption of 
personal services such as restaurant meals, hotels, concerts, haircuts, 
and the like involved personal contact and ran the risk of infection 
with the coronavirus.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The impact of the virus's threat is shown more clearly in the chart 
(below) reproduced from the Track the Recovery website. The chart 
displays a real-time estimate of total spending (blue), as well as 
spending by households in low-income (green) and high-income (red) zip 
codes. All three measures collapse in early March 2020. Of note, in 
part due to the large policy response, spending overall and in low-
income areas is now above January 2020. Spending in high-income zip 
codes, however, has yet to recover and remains 2.2 percent below last 
year.
    There are two lessons from these data. The first is that there is 
no real substitute for defeating the coronavirus. Only that will permit 
the full resumption of economic activity. Second, and as a corollary, 
none of the policies contemplated in the American Rescue Plan will 
stimulate the lost services spending of relatively affluent households.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

The Near-Term Outlook
    Following the precipitous decline in early 2020, the economy began 
to recover and is expected to continue to do so. The chart, below, 
documents recent quarterly growth rates of GDP and reproduces the 
recent economic projections of the Congressional Budget Office (CBO). 
\1\ The blue bars represent the quarter-by-quarter growth rates of GDP 
(at an annual rate), while the orange bars measure the ``output gap''--
the difference between the actual level of GDP and the potential for 
GDP when economic resources are fully employed--as a percentage of 
potential GDP.
---------------------------------------------------------------------------
     \1\ I adjusted the CBO projection because the actual GDP for the 
fourth quarter of 2020 is below the CBO projection. I raised the growth 
rates of GDP in the first half of 2021 to reach the projected level in 
Q3 of 2021.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The chart carries two lessons. The first is that the economy is 
growing and growing rapidly (over 5 percent in the current quarter). 
Clearly, the economy is far from recession territory and certainly not 
a disaster. As a consequence, the output gap will fall below 2 percent 
by the middle of this year and below 1 percent by the end of 2022.
    As discussed earlier, the key headwind to the economy is the 
reduced spending due to the interference of the coronavirus. The lesson 
is that controlling and eliminating the virus is the only route to 
rapid, sustained, economywide growth. Policies that hasten this 
development should be a priority. In addition, Congress recently passed 
$900 billion in support of the economy. This constitutes roughly 4 
percent of GDP. If the funds for checks, unemployment insurance (UI), 
the Paycheck Protection Program, and other funds move into the economy 
over the next 6 months, this is support at an annual rate of 8 percent.
    If recent history is any guide, much of these funds will be saved. 
Over the course of 2020, the saving rate skyrocketed from roughly 7.5 
percent to nearly 35 percent in the aftermath of the CARES Act and 
remained nearly twice that through November.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The bottom line? The economy has underlying strength, and a lot of 
fiscal support remains in the pipeline. If the virus vanished 
overnight, there would be no case for further action.
The Theory of Economic Stimulus and Its Appropriate Application
    The American Rescue Plan--the Biden administration's $1.9 trillion 
proposal--is advertised as much-needed stimulus to reverse the course 
of the economy and restore growth. As noted above, the economy is not 
in recession and is expected to grow.
    Moreover, recall that the ``theory'' of stimulus is that when the 
economy is below full employment, Government stimulus--tax cuts, 
checks, spending--will boost spending. This will, in turn, stimulate 
business activity, which will begin a virtuous cycle of additional 
income to workers, more spending, and more hiring. Because of the 
virtuous cycle, $1 of stimulus is expected to have (much) more than a 
$1 impact--the ``multiplier effect.''
    That's the theory; it just has nothing to do with the current 
policy debate. First, there will be no stimulus as long as the virus 
stops households from spending freely. Further, even taking the 
stimulus theory at face value, the $1.9 trillion size of the package 
eclipses the economic need. As noted above, currently, real GDP is 
below potential GDP with the output gap somewhere in the vicinity of 
$450 billion (in 2012 dollars). The $1.9 trillion proposal is a bit 
over $1.6 trillion in 2012 dollars. Thus, the proposal is a stimulus of 
over three times the size of the output gap that is needed to get the 
economy back to potential.
    Based on any reasonable economic theory of stimulus, $1.9 trillion 
is far too large. In the chart (below), I assume that the stimulus hits 
the economy in equal increments over the 7 quarters from Q2 2021 to Q4 
2022. Moreover, I assume the ``multiplier'' impact of $1 of spending is 
a $0.50 increase in GDP--not much stimulus at all! As the chart 
indicates, the economy exceeds its potential by the final quarter of 
this year. From that point forward, the only result will be overheating 
that will lead to inflated asset prices, inflated prices for goods and 
services, and an increased risk of economic turmoil.
    There is an alternative way to look at these efforts: as ``relief'' 
that replaces income to relieve the burden of the crisis, with no 
pretense that there will be ``stimulus.'' From that perspective, the 
funds should be targeted on those in financial distress, but the latest 
proposal is far too broad. The request to send checks includes 
individuals even if they did not miss a day of work or a single 
paycheck. It would be better to target the long-term unemployed. Labor 
Department data indicate that nearly four million people have been 
unemployed for 27 weeks or longer. They each could receive a check for 
over $96,000 with only a fraction of the same pool of money. While 
that's not realistic, $2,000 more to the long-term unemployed would 
cost only $8 billion.
The Composition of the Plan
    The second key aspect of the proposal is that its content has an 
internal contradiction. In broad terms, there are provisions to fight 
the coronavirus with more vaccines and testing, more than $1 trillion 
for households, and $440 billion for aid to communities and businesses. 
If the plans to fight the virus are successful, however, there will be 
no need for special monies to open schools, open child daycares, 
provide paid leave, support businesses, or stimulate household 
spending. Only if the vaccination plan is expected to fail does it make 
sense to provide large-scale support for the economy through the summer 
and into the fall. The sensible strategy is to robustly fund the Biden 
vaccination plan, check for success, and continue to take the pulse of 
the economy.
    The third key feature is that some of the economics are very weak 
(at best). It makes no sense to increase to $400 the supplemental UI 
benefit. Setting the benefit at $300 was a tough compromise; there is 
the potential for great damage in raising it to $400. At the $400 
level, 50 percent of workers nationwide may be able to make more on 
unemployment than at work, which can create a strong disincentive for 
them to return to work. Similarly, there is no rationale for extending 
the UI to the end of September (especially if one expects the labor 
market to be essentially unimpaired by the virus during the summer). 
Consider also the proposal to spend $40 billion on housing programs, 
which broadly includes $25 billion for rental assistance, $10 billion 
for homeowner assistance, and $5 billion for homelessness assistance. 
\2\ \3\ Conceptually, I find it difficult to reconcile the need for 
specific assistance on housing with the notion that Congress has 
provided hundreds of billions in stimulus checks and enhanced UI 
benefits to permit households to maintain their budgets--including rent 
and mortgages. Moreover, the funding is not temporary; it would be 
available to be disbursed for up to 5 years (until September 30, 2025); 
well past the expected duration of the COVID pandemic. \4\
---------------------------------------------------------------------------
     \2\  https://docs.house.gov/meetings/BA/BA00/20210210/111179/HMTG-
117-BA00-20210210-SD002.pdf
     \3\  https://docs.house.gov/meetings/BA/BA00/20210210/111179/HMTG-
117-BA00-20210210-SD002.pdf
     \4\ Sections 4201(j), Section 4207(a), Section 4206(a) of HFSC 
reconciliation bill, available at https://docs.house.gov/meetings/BA/
BA00/20210210/111179/HMTG-117-BA00-20210210-SD003.pdf.
---------------------------------------------------------------------------
    This request comes on top of $40 billion already provided for 
housing programs in response to COVID, \5\ including $25 billion in 
temporary emergency rental assistance funds Congress just provided in 
the $900B spending bill that became law in late December. \6\ A total 
of $80 billion seems out of line with the actual need. The National 
Multifamily Housing Counsel's (NMHC) rent payment tracker has 
consistently shown from April 2020 through Jan. 2021 that by the 20th 
of the month 8-11 percent of renting households have not paid their 
rent and that by the end of the month 5-7 percent of renting households 
have not paid their rent. \7\ Using the upper end of those ranges puts 
the price tag in the neighborhood of the National Council of State 
Housing Agencies that estimated renting households could owe $13-24B in 
unpaid rent by Jan. 2021. \8\
---------------------------------------------------------------------------
     \5\ https://www.covidmoneytracker.org/
     \6\ https://home.treasury.gov/policy-issues/cares/emergency-
rental-assistance-program
     \7\ https://www.nmhc.org/research-insight/nmhc-rent-payment-
tracker/; https://www.nmhc.org/globalassets/research-insight/rent-
payment-tracker/data-downloads/rent-paymenttracker-02092021.xlsx
     \8\ https://www.ncsha.org/resource/stout-rental-and-eviction-live-
data/
---------------------------------------------------------------------------
    Another questionable design is the checks to households. The $600 
checks provided in December will produce no real stimulus; raising them 
to $2,000 doubles down on a failed policy. If the checks are, instead, 
viewed as relief for those facing financial travail they need to be 
targeted on the long-term unemployed.
    Raising the minimum wage to $15 per hour is the antithesis of 
``stimulus'' and should therefore be excluded from the package. CBO's 
recent study finds that the proposed legislation would raise the number 
of unemployed by 1.4 million. Jobs would decline because ``From 2021 to 
2031, the cumulative pay of affected people would increase, on net, by 
$333 billion.'' Also, ``That net increase would result from higher pay 
($509 billion) for people who were employed at higher hourly wages 
under the bill, offset by lower pay ($175 billion) because of reduced 
employment under the bill.''
    To date, the fiscal response to COVID-19 has been appropriately 
large, timely, and entirely temporary. The final thing to note is that 
many of these proposals have nothing to do with COVID-19 and are 
permanent or clearly intended to be: the grotesque bailout of the 
multiemployer pension system, as well as the expanded and advanceable 
child tax credit, the childcare tax credit, the expanded earned income 
tax credit, and the expanded and larger premium tax credits.
    The bottom line is that the Biden American Rescue Plan is 
inconsistent with the current and projected strength of the economy, 
ignores economic support that is in the pipeline, spends over a 
trillion on problems that the vaccination program is intended to solve, 
and contains numerous extraneous proposals. Any legislative compromise 
that will pass Congress should have to be much better designed.
    Thank you, and I look forward to your questions.
                                 ______
                                 
                PREPARED STATEMENT OF GIANNI CRACCHIOLO
                     Manager, Sal & Jerry's Bakery
                           February 18, 2021
    Chairman Brown, Ranking Member Toomey and distinguished Members of 
the Senate Banking Committee. Thank you for the invitation to testify 
today.
    I am Gianni Cracchiolo. My family owns Sal & Jerry's Bakery in New 
York. Sal & Jerry's Bakery is a retail and wholesale bakery that 
supplies the public and distributors with Italian cookies, pastries, 
and breads. My father and his cousin, emigrants from Italy, founded Sal 
& Jerry's Bakery in 1983 in the Bensonhurst section of Brooklyn. In 
2012, we expanded our business by opening a second location on Long 
Island that primarily supplies to distributors.
    Our bakery in Brooklyn was a staple in our community for nearly 40 
years until we were, unfortunately, forced to close our doors in August 
of 2020. This bakery was our family's legacy, one filled with an 
entrepreneurial spirit, and rich with tradition, culture, and love. It 
was the quintessential American Dream for immigrants who came to this 
country to provide a better life for their families.
    Minimum wage hikes and other State and Federal regulations acted as 
a silent killer that slowly chipped away at revenue and caused our 
bakery in Brooklyn to perish. COVID-19 and the ensuing lockdowns were 
not the main cause of our closure but were the straw that broke the 
camel's back. Coronavirus should not be used as the scapegoat by 
policymakers to further ignore the fact that small businesses are 
vanishing in this country due to Government regulations making it 
difficult to succeed.
    The decline in growth and long-term viability of our bakery became 
evident during the first few years of minimum wage increases in New 
York. At our retail bakery, we had three tiers of wages for our 
workforce. The 1st tier was our night bakers, who got paid a premium 
for shift differential. The 2nd tier was day shift bakers, and the 3rd 
tier was general laborers. General laborers are product packers, retail 
counter service, and maintenance workers. These were individuals who 
typically consist of working students, entry-level employees and hourly 
staff. These individuals started at minimum wage as they began to learn 
the trade and advance in their roles. Internal mobility was always an 
option we encouraged our staff to pursue at Sal & Jerry's Bakery.
    As Tier 3 minimum wage employees' pay increased by $1.00 per fiscal 
year, wages began creeping up to the Tier 2 wages, and this was when 
the problem started. You cannot justify the fact that working high 
school students or entry-level employees with no prior experience 
should be making the same wages as the experienced staff. It is neither 
fair, nor ethical. As years passed, my Tier 2 workers began to take 
notice of the minimum wage increases and demanded more pay to 
compensate for their experience and skill. It was soon a domino effect 
when 1st Tier employees wanted raises. We found ourselves with our 
backs against a wall in a situation where all salaries needed to 
increase. This crippled us.
    To put this into perspective, each year that the minimum wage 
increased $1.00, payroll for the year went up $40,000. Multiply that by 
the number of years it has gone up and we're now at $120,000 total. 
This choke-hold was something that a small bakery could no longer 
withstand. I needed to make up for these increases and the only way to 
do so was to pass it onto our consumers. How much is someone willing to 
pay for a loaf of bread or a pound of cookies? At some point, people 
who are used to paying a certain price for a loaf of bread are going to 
start to complain, and that is exactly what they did. Our customers 
weighed their options and sought out their baked goods elsewhere.
    Customers began to shop for their baked goods at supermarkets and 
large box stores like Target and Walmart. These stores offered lower 
quality versions of our products at a price point that customers were 
comfortable with. The corner bakery where they used to get their daily 
bread was now a luxury item only to be bought for special occasions and 
holidays. The big businesses benefited greatly from the minimum wage 
increases and continued to see their valuations explode. They garnered 
more customers, our customers, and replaced half of their minimum wage 
staff with electronic kiosks and part-time help. It was a win/win 
situation for big business. The minimum wage increases continue to make 
it difficult for small businesses to retain their employees. On 
numerous occasions, I have had dishwashers walk out on us within the 
first 2 weeks of employment. A dishwasher is an entry-level stepping 
stone role for most restaurants, bakeries, and food service businesses. 
It's not the most glamourous job, but someone has to do it. Let me ask 
you this . . . if you had a choice to work as a dishwasher and clean 
mixing bowls, pots, pans, trays, floors, etc. for $15/hr or work at a 
supermarket stocking shelves for the same wages, which would you 
choose? This goes for all entry-level jobs. All entry-level positions 
no matter what company you work for is now on an even playing field no 
matter how easy or hard the positions. For me to keep my head above 
water, I would have to pay them so well that they would stay. Meaning I 
would have to sell bread for $20.00/loaf and hope to sell enough to 
cover payroll each week.
    To add insult to injury, in 2020 the CARES Act provided additional 
unemployment incentives to our employees exceeding their regular pay. 
We essentially lost our entire staff from March until July, because 
employees were making more money staying at home claiming unemployment 
than coming into work. Even though we received nominal assistance from 
the Paycheck Protection Program (PPP), we called on our employees to 
return to work, yet they did not comply. The Economic Injury Disaster 
Loan (EIDL) assistance received did not even cover 1 month's expenses. 
It became impossible to retain my workforce, maintain productivity, and 
turn a profit. I had no choice but to close. The Federal Government, 
provided more to help for people to stay home rather than help 
businesses stay open.
    Small businesses create about 80 percent of the jobs in this 
country. They are the backbone of America. If small businesses continue 
to close their doors, this country will be harmed economically.
    Substantial minimum wage increases can be very damaging to small 
businesses and you must compare the margin of profit vs. corporate 
companies. Big businesses can afford these wage increases, we cannot. 
Overall, 92 percent of small businesses oppose raising the minimum wage 
according to an NFIB member ballot, because this will result in 
unintended consequences like layoffs and bankruptcy. This will be the 
beginning of the end for entrepreneurs and start-ups and we could say 
goodbye to Main Street America as we know it.
    Thank you for the opportunity to share our experience and I look 
forward to any questions.
      
      RESPONSES TO WRITTEN QUESTIONS OF SENATOR HAGERTY
                       FROM JOHN A. COSTA

Q.1. A letter dated February 1, 2021, from Amalgamated Transit 
Union; American Public Transportation Association, 
Transportation Trades Department, AFL-CIO; Transport Workers 
Union of America; and International Association of Sheet Metal, 
Air, Rail, and Transportation Workers--Transportation Division; 
noted that public transit agencies face a projected funding 
shortfall of $39.3 billion through 2023. During the hearing on 
February 18, 2021, you noted that ``most of'' the $39.3 billion 
potential shortfall that public transit agencies might face 
through 2023 is due to the pandemic. Is there a way to quantify 
``most of''?

A.1. Response not received in time for publication.

Q.2. Describe the financial situation of Amalgamated Transit 
Union members' pension funds and how potential shortfalls might 
be addressed without Federal transit assistance.

A.2. Response not received in time for publication.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF CHAIRMAN BROWN
                      FROM JYOSHU TSUSHIMA

Q.1. I'd like to give you a chance to respond to Senator Van 
Hollen's question regarding situations he'd heard about in his 
State in which renters were losing their homes not because they 
were being evicted mid-lease, but because the landlord chose 
not to renew their lease.
    Is this a situation you are seeing in your work with 
renters in Ohio?
    In your experience does a tenant's inability to pay rent in 
the previous months play a role in these situations?

A.1. Yes to both questions. Ohio, like many other States, 
allows landlords to terminate a lease without reason once the 
lease expires, even if the tenant offers rent or wishes to 
renew the lease. Many Ohio families' tenancies have been 
terminated during the pandemic because of this, and no 
protections have been created yet to prevent no-cause lease 
terminations during the pandemic.
    The CDC eviction moratorium does not explicitly prohibit 
no-cause lease terminations and has left it to individual 
courts to interpret. Consequentially, when a tenant falls 
behind on rent and happens to have an expired lease, landlords 
often evict the tenant for ``holding over'' past the expiration 
date of the lease instead of filing an eviction for not paying 
rent. By claiming holdover, landlords can circumvent the CDC 
eviction moratorium since the CDC eviction moratorium is only 
applicable to tenants who fall behind on rent, even when 
landlords are clearly terminating tenancies because tenants are 
falling behind on rent. Even in our own court we see evictions 
stopped by the moratorium when the landlord initially evicts a 
tenant for falling behind on rent, only to have the landlord 
file a new eviction immediately after to claim the tenant is 
holding over.
    This is occurring even when tenants can catch up on their 
rent or are eligible for rental assistance. Simply falling 
behind on rent is enough for many landlords to terminate 
tenancies in order to replace tenants who are vulnerable to the 
disruptiveness of the pandemic with tenants who are more 
economically resilient. In other words, a seamless undisrupted 
flow of rent is often given more value than the well-being of 
the renters paying it.
    Nearly every renter is vulnerable to no-cause lease 
terminations since the vast majority of renters' leases expire 
after 1 year. This pandemic has already lasted more than a year 
and is poised to be an endemic disease, creating great 
uncertainty about when and how tenants can return to a normal 
work life and pay rent without disruptions. Leases signed in 
March 2020 are now expiring and every month another month's 
worth of leases will expire. The lack of protections against 
no-cause lease terminations has put hundreds of thousands of 
Ohioan households and millions of American households at risk 
of losing their homes.
    Many tenants are facing displacement from no-cause lease 
terminations even when they never had problems paying rent. In 
cities like Columbus, Ohio, which have a high demand for 
housing, many real estate investors prioritize acquiring and 
developing rental properties to attract higher paying tenants, 
consequentially forcing many poorer tenants to relocate in the 
middle of the pandemic and compete for whatever scarce 
affordable housing remains.
    The reality is that poor families are being forced out of 
their homes regardless of whether they are paying rent because 
landlords have a virtually absolute legal right to terminate 
tenancies without explanation, despite the funding available to 
help tenants catch up on rent or the increased risks of 
spreading COVID-19 when families become homeless.

Q.2. Last year I introduced a bill called the Eviction Crisis 
Act (S. 3030) with Senators Bennet, Portman, and Young.
    Do you think this legislation would be beneficial in 
helping inform policymakers and the public about eviction 
trends across the country, as well as offering other 
protections to renters who are facing or have faced eviction?

A.2. The Eviction Crisis Act (ECA) would address some of the 
most fundamental problems in this country's eviction crisis by 
focusing on establishing landlord-tenant focused community 
courts, increasing data collection and analysis, and developing 
programs to prevent housing instability during a crisis.

Landlord-Tenant Focused Community Courts

    Establishing and developing landlord-tenant focused 
community courts, or ``housing courts,'' is one of the most 
effective steps a community can take to prevent evictions and 
maintain stable housing and is a crucial piece to the ECA as a 
whole. Housing courts provide a centralized location for 
agencies to connect with tenants to address the broad range of 
issues that lead to evictions by connecting tenants with legal 
assistance, financial assistance, healthcare providers, and 
even potential employers.
    Lack of understanding the legal process is one of the most 
significant causes of evictions that can be corrected with 
housing courts that provide tenants access to housing 
attorneys. Most tenants have minimal understanding of housing 
law, and often carry mistaken beliefs of what the law is, which 
leads to decisions that cause evictions. One of my clients, who 
had been paying rent to her landlord for 30 years, withheld 
rent when her landlord failed to repair a leaky roof after 
several years of complaints. Mold permeated her home as 
rainwater ran through the ceilings, forcing my client to close 
her home daycare business that she had run for nearly 20 years. 
Legally, because my client withheld rent, her landlord was 
entitled to evict her despite his failure to make repairs. This 
is a common mistake made by Ohioan tenants that can be avoided 
when tenants are provided access to housing attorneys at 
housing courts.
    Integrating financial assistance agencies with housing 
courts also strongly promotes collaboration between landlords 
and tenants to maintain housing. Such agencies are often 
coupled with social services that address underlying causes of 
tenants falling behind on rent to make sure tenants are less 
likely to fall behind on rent in the future.
    Perhaps one of the greatest benefits in having a designated 
housing court is that agencies can collaborate with each other 
to create and execute plans to help tenants access safe and 
stable housing, instead of asking tenants and landlords to 
individually piecemeal assistance from several disjointed 
agencies across the service area. Housing courts with well-
integrated services can also alleviate overworked court systems 
by diverting landlords and tenants towards solutions that do 
not require judicial intervention.
    Maintaining housing courts also allows magistrates and 
judges to develop their expertise in housing law and local 
housing issues, which is necessary for the ever-growing 
complexities and changes in housing law. Different housing laws 
exist for private rentals, mobile homes, hotels, rooming 
houses, land contracts, work for rent leases, Section 8 
vouchers, elderly housing, and so on. Proper evaluation in 
housing cases often requires experience, research, and an 
established network of housing law colleagues to provide 
feedback. Like any profession, housing law is a practice that 
develops with focus, effort, and time, which is precisely what 
designated housing courts are designed for.

Data Collection

    Data on evictions is often scarce, especially when it comes 
to understanding and measuring risk factors for evictions. 
Before 2017, hardly any data was available in Franklin County 
to accurately describe basic demographics of the 18,000+ 
households that faced eviction every year. Although we could 
extrapolate from anecdotal observations, we could anything 
about evicted households with precision.
    To address this gap my team started gathering data to 
measure tenant demographics, how effective housing attorneys 
were in preventing evictions, which landlords were more likely 
to evict, and other factors that affect eviction practices. 
This data has been helpful in not only managing our own housing 
stability programs but has also been useful for our community 
partners in identifying which communities and groups of people 
most need help and what kind of help they need. While our 
small-scale data collection efforts have demonstrated its 
usefulness, we are only left to wonder what else could be 
measured if we had better resources, such as assistance from 
statisticians, economists, or other data specialist 
professions.
    A national effort to collect data would produce invaluable 
insights on housing and evictions in the United States. Courts 
and communities around the country have implemented a wide 
range of programs to prevent evictions. Eviction data would 
help measure the performance of these programs to identify what 
approaches are effective in reducing evictions and which 
programs could use development.

Crisis Assistance Programs

    Focused crisis-assistance programs are needed to address 
nonlegal problems that are common among impoverished 
households, such as barriers and instability with health, 
education, employment, and other social determinants. Legal 
assistance, financial assistance, and good court outcomes are 
necessary but incomplete solutions for many families seeking 
stable housing. As an attorney I cannot provide therapy to my 
mentally disabled clients, which is why we hired a social 
worker to assist them with accessing mental health service 
providers. Tenants are diverse in their backgrounds and needs, 
so we are unable to develop singular cookie-cutter solutions to 
maintain their housing. Dedicated crisis assistance programs 
would be far more effective in assisting tenants with nonlegal 
challenges that cannot be addressed through the legal process.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR SINEMA
                      FROM JYOSHU TSUSHIMA

Q.1. Arizona struggled to allocate the rental assistance 
dollars provided by the Coronavirus Aid, Relief, and Economic 
Security (CARES) Act. Much of the backlog seems to have been 
attributed to onerous requirements at the State level, which 
require renters to go to great lengths and provide excessive 
paperwork to prove financial damage due to the coronavirus 
outbreak. While it is vital we prevent fraud in all Federal 
coronavirus relief programs, we also need the relief to get to 
Americans who are hurting.
    In your opinion, how can Congress better engineer or help 
streamline rental assistance programs so that dollars get to 
those in need in a timely manner?

A.1. One suggestion is to develop and offer a standardized 
system for applications, triaging, and distribution that 
grantees can adopt and implement. If possible, also develop 
standardized software or web services for processing 
applications and maintaining data. Not every community has 
preestablished logistics to distribute rental assistance or to 
meet the increased demands for rental assistance. Creating 
these systems can be time consuming and cumbersome. Offering a 
standardized system could streamline establishment of new 
distribution systems and provide solutions to common 
distribution problems that grantees have not developed 
solutions for.
    Grantees could also benefit from sample triage models, 
especially when funds cannot meet demand or when funds 
fluctuate. Without triage models, grantees are left to develop 
and experiment with triaging that takes time to implement and 
adapt current systems to.
    A process should be developed for taking and waitlisting 
rental assistance applications even after funds are depleted to 
help measure demand. Even if applicants do not qualify for 
assistance, it would be extremely useful to know how many 
households are seeking rental assistance and how much rent they 
are seeking. A waitlisting system could also expedite 
application processing ahead of time before funds are 
replenished.
    It would also be useful if all grantees reported how long 
it takes to distribute funds, from date of application to date 
of payment, to help identify what logistics have been effective 
and what common barriers are encountered. Such reporting and 
evaluation could provide useful insights for improving a 
standardized system.

Q.2. In addition to excessive paperwork, what other types of 
barriers are you seeing renters experience when applying for 
rental assistance?

A.2. We are constantly running into communication problems 
between rental assistance providers, tenants, and landlords. 
Occasionally landlords miss emails from agencies and do not 
supply the necessary documentation to complete an application, 
or tenants do not understand what their next steps are.
    Another problem is that some landlords refuse to work with 
rental assistance providers, leaving many tenants helpless when 
providers require cooperation from landlords before 
distributing funds.
    As mentioned earlier, there is no clear waitlisting 
process. Instead, tenants are told to wait until funds are 
available again before attempting to apply, leading many 
tenants to resubmit applications.
    Another barrier is the constantly changing criteria and 
processes for rental applications. These unpredictabilities are 
difficult to plan around for tenants and the people helping 
them navigate the process. As attorneys, my team cannot always 
rely on the timelines advised by our providers in order to 
draft reliable payment plans for our clients. It also makes it 
more difficult for our clients to plan their immediate finances 
as they build back towards financial stability.
              Additional Material Supplied for the Record
              
  
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                          [all]
</pre></body></html>
